        U.S. DEPARTMENT OF ENERGY
        OFFICE OF INSPECTOR GENERAL


DURING THIS REPORTING PERIOD, WE ISSUED 39 REPORTS; IDENTIFIED
$12.6 MILLION IN FUNDS PUT TO BETTER USE AND $19.3 MILLION IN
QUESTIONED COSTS; OBTAINED $6.2 MILLION IN FINES, SETTLEMENTS,
AND RECOVERIES, 6 CRIMINAL CONVICTIONS, 20 SUSPENSIONS AND
DEBARMENTS, AND 51 CIVIL AND ADMINISTRATIVE ACTIONS; AND
RECEIVED 1,679 HOTLINE CONTACTS. DURING THIS REPORTING
PERIOD, WE ISSUED 39 REPORTS; IDENTIFIED $12.6 MILLION IN FUNDS
PUT TO BETTER US AND $19.3 MILLION IN QUESTIONED COSTS;
OBTAINED $6.2 MILLION IN FINES, SETTLEMENTS, AND RECOVERIES, 6
CRIMINAL CONVICTIONS, 29 SUSPENSIONS AND DEBARMENTS, AND 51
CIVIL AND ADMINISTRATIVE ACTIONS; AND RECEIVED 1,679 HOTLINE
CONTACTS. DURING THIS REPORTING PERIOD, WE ISSUED 39 REPORTS;
IDENTIFIED $12.6 MILLION IN FUNDS PUT TO BETTER USE AND $ 19.3
MILLION IN QUESTIONED COSTS; OBTAINED $6.2 MILLION IN FINES,
SETTLEMENTS, AND RECOVERIES, 6 CRIMINAL CONVICTIONS, 20
SUSPENSIONS AND DEBARMENTS, AND 51 CIVIL AND ADMINISTRATIVE
ACTIONS; AND RECEIVED 1,679 HOTLINE CONTACTS. DURING THIS
REPORTING PERIOD, WE ISSUED 39 REPORTS; IDENTIFIED $12.6
MILLI

   SEMIANNUAL REPORT TO CONGRESS
          OCTOBER 1, 2013 – MARCH 31, 2014
                                                         DOE/IG-OO65
                                           Semiannual Report to Congress

TABLE OF CONTENTS

Message from the Inspector General ......................................................................... 2

Impacts
         Key Accomplishments ................................................................................................ 3
         Positive Outcomes ...................................................................................................... 4


Reports
         Investigative Outcomes.............................................................................................. 6
         Audits ......................................................................................................................... 9
         Inspections ............................................................................................................... 12
         Recovery Act............................................................................................................. 13


Results
         Legislative and Regulatory Reviews ........................................................................ 14
         Reports Lacking Management Decision................................................................... 14
         Prior Significant Recommendations Not Implemented ........................................... 15
         Audit and Inspection Reports with Recommendations for Better Use of Funds .... 19
         Audit and Inspection Reports with Questioned and/or Unsupported Costs .......... 20
         Investigative Activity ................................................................................................ 21
         Hotline Activity......................................................................................................... 22
         Whistleblower Retaliation Complaints .................................................................... 23
         Peer Reviews ............................................................................................................ 24


Summaries
         Investigative Outcomes ........................................................................................... 25
         Audit Reports ........................................................................................................... 33
         Inspection Reports .................................................................................................. 44
         Recovery Act Reports .............................................................................................. 47
         Reporting Requirements Index ............................................................................... 49




Energy Inspector General | October 1, 2013 – March 31, 2014                                                                                   Page 1
                                 Semiannual Report to Congress


Message from the Inspector General
I am pleased to present the Office of Inspector General’s Semiannual Report to Congress for the
period ending March 31, 2014. This report highlights our efforts to identify and address those
areas within Department of Energy programs and operations that are most vulnerable to fraud,
waste and abuse.

During this reporting period, we continued our efforts to assist the Department in identifying
opportunities for cost savings, enhanced programmatic performance, and operational
efficiencies. We issued a total of 39 reports that addressed prominent concerns pertaining to the
Department’s mission-related priorities. For example, a Special Inquiry entitled, "Review of
Allegations Regarding Prohibited Personnel Practices at the Bonneville Power Administration,"
found widespread improper hiring practices that adversely impacted veterans, subjected
individuals to economic consequences, disrupted Department and Bonneville operations, and
exposed the Department to a variety of legal challenges. In our report entitled, "Department of
Energy's July 2013 Cyber Security Breach," we determined that, in spite of a number of early
warning signs that certain personnel-related information systems were at risk, the Department
had not taken necessary action to protect the Personally Identifiable Information of a large
number of its present and former employees, their dependents, and many contractor employees.
Finally, our report on, "NNSA’s Management of the $245 million Nuclear Materials Safeguards
and Security Upgrades Project Phase II at Los Alamos National Laboratory," found that, as a
result of a number of project management weaknesses, completion of the project was delayed by
nearly a year and costs increased by as much as $41 million.

During this reporting period, the Office of Inspector General also conducted a number of
criminal investigations that resulted in significant convictions and monetary recoveries. In one
such case, we determined that a former employee of a California non-profit agency submitted
false claims and accepted bribes from a subcontractor on a weatherization contract funded under
the American Reinvestment and Recovery Act (Recovery Act). Our work on this investigation
resulted in the former employee’s conviction and order to pay restitution. This case highlights
the fact that although the Department has awarded the $30 billion it received under the Recovery
Act, our office continues to expend significant resources to ensure that the funds are used
appropriately.

I commend the efforts of my staff for their work. We appreciate the opportunity to work with
Department management, program officials, and others to increase transparency while deterring
fraud, waste, abuse, and mismanagement throughout the Department.




                                                              Gregory H. Friedman
                                                              Inspector General



Energy Inspector General | October 1, 2013 – March 31, 2014                                 Page 2
                                   Semiannual Report to Congress

IMPACTS



                                         KEY ACCOMPLISHMENTS



                      Total Reports Issued                                                       39

                             Audit Reports Issued                                                32

                             Inspection Reports Issued                                            4

                             Recovery Act Reports Issued                                          3

                      Funds Put to Better Use                                      $12.6 million


                      Questioned Costs                                             $19.3 million

                      Dollars Recovered (Fines, Settlements,                         $6.2 million
                      Recoveries)

                      Criminal Convictions                                                        6


                      Suspensions and Debarments                                                 20


                      Civil and Administrative Actions                                           51


                      Hotline Contacts                                                      1,6791

                  1
                   In prior reporting periods, this number included all contacts with the Hotline
                  regardless of the nature or subject of the contact. Beginning with this reporting
                  period, this number only includes contacts which require action by OIG employees.




Energy Inspector General | October 1, 2013 – March 31, 2014                                           Page 3
                                 Semiannual Report to Congress

Positive Outcomes
During this reporting period, the Department took positive actions as a result of OIG work
conducted during the current or previous periods. Consistent with our findings and
recommendations:

•   Section 317 of the Consolidated                               October 31, 2013. The contracting
    Appropriations Act, 2014 reduced the                          officer relied, in part, upon our work in
    appropriated amounts for non-defense                          Cost Incentives for the Department's
    programs by $7 million to reflect savings                     Cleanup Contract in Idaho
    from reducing foreign travel for                              (OAS-RA-13-20, May 2013), to disallow
    Department contractors. This reduction                        certain cost reallocations that ultimately
    is consistent with our recommendation                         reduced the fee claimed by the
    of extending current Federal workforce                        contractor by more than $20 million.
    travel reduction requirements to
    contractor employees in our                               •   Our audit report on The Department’s
    Management Alert on The Department's                          Hydrogen and Fuel Cells Program
    Management of Foreign Travel                                  (OAS-RA-13-31, September 2013),
    (DOE/IG-0872, October 2012).                                  identified concerns with the financial
                                                                  management of the Hydrogen and Fuel
•   Our report on Lawrence Livermore                              Cells Program, including the Program's
    National Laboratory's Use of Time-and-                        reimbursement of $5.3 million in
    Materials Subcontracts (OAS-M-13-06,                          unsupported and/or potentially
    August 2013) found that Lawrence                              unallowable costs. As of December 31,
    Livermore National Laboratory (LLNL)                          2013, the Office of Energy Efficiency and
    had incurred excess costs under two of                        Renewable Energy (EERE) established a
    its time-and-materials subcontracts and                       Central Invoice Review Unit to assist
    made excessive use of non-competitive                         offices with the review and approval of
    subcontract awards. Using these audit                         detailed invoices, of which the Fuel Cell
    results, Livermore Field Office's                             Technologies Office was one of the first
    Contracting Officer negotiated a                              offices to participate. Additionally, the
    $489,280 recovery from Lawrence                               Office of Fossil Energy (Fossil Energy)
    Livermore National Security, LLC. The                         improved its invoice review and
    Livermore Field Office also established a                     documentation retention requirements
    new performance measure in LLNL's                             by formalizing an invoice review
    2014 Procurement Objectives Matrix to                         procedure that is consistent with
    reduce non-competitive time-and-                              Federal Project Management Center
    materials subcontract awards. In                              guidance. Fossil Energy/National Energy
    response, LLNL implemented new cost                           Technology Laboratory has also
    analysis policies and techniques.                             incorporated lessons learned into the
                                                                  invoice review process. Finally, EERE is
•   The Idaho Operations Office issued a                          incorporating a new Subaward/
    final fee determination letter to the                         Subcontract Change Notification clause
    cleanup contractor at the Idaho                               into the terms and conditions for all
    National Laboratory site on                                   new awards and is also requiring

Energy Inspector General | October 1, 2013 – March 31, 2014                                           Page 4
                                 Semiannual Report to Congress

    applicants to complete a section for                          appropriate to address the consulting
    conflicts of interest prior to award                          administration and management issues
    execution.                                                    we observed relative to the Heather
                                                                  Wilson and Company, LLC agreements.
•   Since our special report on the Inquiry                       In January 2014, we were advised by
    into the Security Breach at the National                      National Nuclear Security Administration
    Nuclear Security Administration's                             Officials that the Fee Determining Official
    (NNSA) Y-12 National Security Complex                         took actions in response to this failure by
    (DOE/IG-0868, August 2012) was issued,                        the laboratory leadership and reduced
    the Y-12 National Security Complex re-                        the "Leadership" component of the
    classified security equipment                                 FY 2013 fee in lieu of seeking a
    components to ensure that                                     retroactive fee reduction.
    maintenance on critical elements is
    completed within a 24-hour period. In                     •   In order to ensure that Department
    addition, equipment status is tracked by                      personnel are aware of the Federal
    both the site's management and                                nepotism statute and prohibited
    operating contractor and Federal                              personnel practices, a Department-wide
    managers. Further, NNSA established a                         notification was sent to all employees
    "limited- notice, limited-scope" security                     explaining the various statutes and
    assessment concept that was                                   regulations that prohibit a Federal
    implemented in late FY 2013. Finally,                         employee from using his or her official
    the Office of Defense Nuclear Security                        position to secure employment for
    also actively participates in NNSA's                          relatives. This action is consistent with
    quarterly Corporate Performance                               the recommendations in our report on
    Evaluation Program reviews, which                             Alleged Nepotism and Wasteful
    evaluate the contractors' safeguards                          Spending in the Office of Energy
    and security performance.                                     Efficiency and Renewable Energy
                                                                  (DOE/IG-0888, June 2013). Additional
•   Our inspection on Concerns with                               emphasis on these matters occurred
    Consulting Contract Administration at                         during the 2013 annual ethics training
    Various Department Sites                                      provided to senior executives and other
    (DOE/IG-0889, June 2013),                                     senior employees. A greater emphasis
    recommended that the Fee                                      on these topics also occurs during ethics
    Determination Official determine                              training routinely provided to new
    whether adjustments to previously                             supervisors.
    awarded performance fees are




Energy Inspector General | October 1, 2013 – March 31, 2014                                           Page 5
                                    Semiannual Report to Congress

REPORTS
Investigative Outcomes


                                           SUMMARY TITLE                                      PAGE


Former Department Contractor Enters into Repayment Agreement                                   25

Department Employee Resigns in Lieu of Termination                                             25

Former Western Area Power Administration Employee Sentenced                                    25

Settlement Agreement with Energy Efficiency and Conservation Block Grant Recipient             25

Guilty Plea in Savannah River Site False Statements Investigation                              25

Five Former Contractor Employees Indicted and Arrested                                         26

Interim Distribution of Bankruptcy Proceeds in Defective Body Armor Case                       26

Settlement Reached with Department Grantee                                                     26

Former University of Kentucky Professor Enters Pretrial Diversion Agreement                    26

Former Subcontractor Employee Debarred in Weatherization Program Investigation                 26

Weatherization Expenditures Disallowed                                                         27

Action Taken in Response to an Investigative Report to Management Involving the Control and
                                                                                               27
Accountability of Precious Metals

Sentencing in Weatherization Fraud and Bribery Investigation                                   27

Suspension in False Claims Investigation                                                       27

Administrative Actions Taken Against Former Social Security Administration Beneficiary         27

Funds Put to Better Use in False Claims Investigation                                          28

Former National Energy Technology Laboratory Director Indicted                                 28




 Energy Inspector General | October 1, 2013 – March 31, 2014                                  Page 6
                                      Semiannual Report to Congress


                                            SUMMARY TITLE                                         PAGE


Settlement Agreement Reached in Cost Mischarging Investigation                                     28

Administrative Actions Taken Against Former Department Contractor Employee                         28

Guilty Plea by Former State of Texas Official in Recovery Act Grant Fraud Investigation            28

Former Lawrence Livermore National Laboratory Employee Arraigned                                   28

Employee Terminated at Los Alamos National Laboratory for Misuse of Gas Card                       29

Civil Complaint Filed Against Department Contractors in Connection with False Claims Violations    29

Monetary Recovery in Kickback Investigation                                                        29

Former State of Texas Official Sentenced in Recovery Act Grant Fraud Investigation                 29

Individual Pleads Guilty in Computers for Learning Program Fraud Investigation                     29

Contractor Settles with the Department in False Claims Investigation                               30

Contract Employee’s Site Access Revoked                                                            30

Former Community Action Agency Director Sentenced and Debarred                                     30

Individual Pleads Guilty in Access Device Investigation                                            30

Sentencing in False Statements Investigation                                                       30

Response to Investigative Report to Management in Conflict of Interest Investigation               30

Guilty Plea in Solar Rebate Program Investigation                                                  31

Sentencing in Y-12 Destruction Case                                                                31

Subcontractors Debarred in Weatherization Program Investigation                                    31

Response to Investigative Report to Management Issued in Misuse of Position Investigation          31

Grantee Settles False Claims Case                                                                  31


Energy Inspector General | October 1, 2013 – March 31, 2014                                       Page 7
                                   Semiannual Report to Congress


                                          SUMMARY TITLE                        PAGE


Department Manager Suspended for Misuse of Position                             32


Sentencing in Child Pornography Investigation                                   32

Former Department Contractor Employee Sentenced in OIG Bribery Case             32

Sentencing in North Carolina Weatherization Assistance Program Investigation    32




Energy Inspector General | October 1, 2013 – March 31, 2014                    Page 8
                                  Semiannual Report to Congress

Audits

                                                              BETTER
  DATE                                                                    QUESTIONED    UNSUPPORTED
            REPORT TITLE                                      USE OF
 ISSUED                                                                     COSTS          COSTS           PAGE
                                                              FUNDS

                                                                                                         Summary
            Assessment of Audit Coverage of Cost
                                                                                                            Not
            Allowability for Battelle Energy Alliance, LLC
 Oct. 8,                                                                                                 Publically
            under Department of Energy Contract No. DE-
 2013                                                                                                   Available –
            AC07-05ID14517 during FY 2012
                                                                                                        Official Use
            (OAS-V-14-01)
                                                                                                           Only
            The Federal Energy Regulatory Commission's
 Oct. 23,
            Unclassified Cyber Security Program – 2013                                                         33
  2013
            (OAS-M-14-01)
            The Department's Fleet Vehicle Sustainability
 Oct. 24,
            Initiatives at Selected Locations                 $700,000                                         33
  2013
            (DOE/ IG-0896)
            The Department of Energy's Unclassified
 Oct. 29,
            Cyber Security Program – 2013                                                                      34
  2013
            (DOE/IG-0897)
            Assessment of Audit Coverage of Cost                                                         Summary
            Allowability for Babcock & Wilcox Technical                                                     Not
 Nov. 4,    Services Pantex, LLC for the period October 1,                                               Publically
                                                                              $94,922
  2013      2009 through September 30, 2012 under                                                       Available –
            Department of Energy Contract No. DE-AC54-                                                  Official Use
            00AL66620 (OAS-V-14-02)                                                                        Only
 Nov. 18,   Management of Tritium within the National
                                                                                                               34
  2013      Nuclear Security Administration(OAS-L-14-01)
 Nov. 20,   Contract Awards to Small Businesses Under
                                                                                                               35
  2013      the Mentor-Protégé Program (DOE/IG-0898)
            Federal Energy Regulatory Commission’s FY
 Nov. 25,
            2013 Financial Statement Audit                                                                     35
  2013
            (OAS-FS-14-01)
             Assessment of Audit Coverage of Cost                                                        Summary
            Allowability for National Renewable Energy                                                      Not
 Nov. 26,   Laboratory during Fiscal Years 2009 through                                                  Publically
                                                                          $17,933,584
  2013      2011 under Department of Energy Contract                                                    Available –
            No. DE-AC36-08GO28308                                                                       Official Use
            (OAS-V-14-03)                                                                                  Only
 Nov. 26,   Management Challenges at the Department
                                                                                                               36
  2013      of Energy – FY 2014 (DOE/IG-0899)
 Dec. 6,    The Department of Energy's July 2013 Cyber
                                                             $3,718,652                                        36
  2013      Security Breach (DOE/IG-0900)
            Department of Energy’s Nuclear Waste
 Dec. 11,
            Fund’s FY 2013 Financial Statement Audit                                                           36
  2013
            (OAS-FS-14-02)
 Dec. 12,   Department of Energy's FY 2013 Consolidated
                                                                                                               37
  2013      Financial Statements (OAS-FS-14-03)


Energy Inspector General | October 1, 2013 – March 31, 2014                                           Page 9
                                  Semiannual Report to Congress

                                                              BETTER
  DATE                                                                 QUESTIONED    UNSUPPORTED
            REPORT TITLE                                      USE OF
 ISSUED                                                                  COSTS          COSTS         PAGE
                                                              FUNDS

                                                                                                    Summary
                                                                                                       Not
            Management Letter on the Federal Energy
 Dec 18,                                                                                            Publically
            Regulatory Commission’s FY 2013 Financial
  2013                                                                                             Available -
            Statement Audit (OAS-FS-14-04)
                                                                                                   Official Use
                                                                                                      Only
            NNSA’s Management of the $245 Million
 Jan. 2,
            Nuclear Materials Safeguards and Security                                                    37
  2014
            Upgrades Project Phase II (DOE/IG-0901)
                                                                                                    Summary
            Assessment of Audit Coverage of Cost
                                                                                                       Not
            Allowability for Pacific Northwest National
 Jan. 6,                                                                                            Publically
            Laboratory under Department of Energy                          $75,576
  2014                                                                                             Available -
            Contract No. DE-AC05-76RL01830 during FYs
                                                                                                   Official Use
            2010 and 2011 (OAS-V-14-04)
                                                                                                      Only
                                                                                                    Summary
            Assessment of Audit Coverage of Cost
                                                                                                       Not
            Allowability for Lawrence Berkeley National
 Jan. 6,                                                                                            Publically
            Laboratory under Department of Energy                        1,142,908
  2014                                                                                             Available -
            Contract No. DE-AC02-05CH11231 during FY
                                                                                                   Official Use
            2011 (OAS-V-14-05)
                                                                                                      Only
                                                                                                    Summary
            Assessment of Audit Coverage of Cost
                                                                                                       Not
            Allowability for B&W Technical Services Y-12,
 Jan. 6,                                                                                            Publically
            LLC under Department of Energy Contract No.                    $53,857
  2014                                                                                             Available -
            DE-AC05-00OR22800 during FYs 2011 and
                                                                                                   Official Use
            2012 (OAS-V-14-06)
                                                                                                      Only
                                                                                                    Summary
            Information Technology Management Letter                                                   Not
 Jan. 9,    on the Audit of the Department of Energy’s                                              Publically
  2014      Consolidated Balance Sheet for FY 2013                                                 Available -
            (OAS-FS-14-05)                                                                         Official Use
                                                                                                      Only
                                                                                                    Summary
            Assessment of Audit Coverage of Cost
                                                                                                       Not
            Allowability for Ames Laboratory during FYs
 Jan. 28,                                                                                           Publically
            2009 through 2012 under Department of
  2014                                                                                             Available -
            Energy Contract No. DE-AC02-07CH11358
                                                                                                   Official Use
            (OAS-V-14-07)
                                                                                                      Only
 Feb. 5,    The Department’s Management of Scientific
                                                                                                         38
  2014      User Facilities (OAS-L-14-02)
            Technology Transfer and Commercialization
Feb. 14,
            Efforts at the Department of Energy’s                                                        38
 2014
            National Laboratories (OAS-M-14-02)




Energy Inspector General | October 1, 2013 – March 31, 2014                                    Page 10
                                 Semiannual Report to Congress

                                                              BETTER
  DATE                                                                 QUESTIONED   UNSUPPORTED
           REPORT TITLE                                       USE OF
 ISSUED                                                                  COSTS         COSTS         PAGE
                                                              FUNDS

           Management Letter on the Audit of the
Feb. 20,   Department of Energy's Consolidated
                                                                                                        39
 2014      Financial Statements for FY 2013
           (OAS-FS-14-06)
           FY 2012 Work Performed Under the Work for
Mar. 12,
           Others Program at Los Alamos National          $2,000,000                                    39
 2014
           Laboratory (OAS-M-14-03)
           Evaluation of Costs Charged to the
Mar. 12,   Washington Savannah River Company
                                                                                                        40
 2014      Contract No. DE-AC09-96SR18500 during FYs
           2010 and 2011 (OAS-L-14-03)
           Department of Energy’s Uranium Enrichment
Mar. 20,   Decontamination and Decommissioning
                                                                                                        40
 2014      Fund’s FY 2012 Financial Statement Audit
           (OAS-FS-14-07)
           Assessment of Audit Coverage of Cost                                                    Summary
           Allowability for Bechtel Marine Propulsion                                                 Not
Mar. 24,   Corporation during October 1, 2011 through                                              Publically
 2014      September 30, 2012 under Department of                                                 Available -
           Energy Contract No. DE-NR0000031                                                       Official Use
           (OAS-V-14-08)                                                                             Only
           National Nuclear Security Administration
Mar. 26,
           Nuclear Weapons Systems Configuration                                                        41
 2014
           Management (DOE/IG-0902)
Mar. 26,   Long-Term Storage of Cesium and Strontium
                                                          $6,200,000                                    41
 2014      at the Hanford Site (OAS-L-14-04)
                                                                                                   Summary
           Assessment of Audit Coverage of Cost
                                                                                                      Not
           Allowability for Princeton Plasma Physics
Mar. 26,                                                                                           Publically
           Laboratory during FYs 2011 and 2012 under
 2014                                                                                             Available -
           Department of Energy Contract No. DE-AC02-
                                                                                                  Official Use
           09CH11466 (OAS-V-14-09)
                                                                                                     Only
           Bonneville Power Administration’s
Mar. 31,
           Transmission Vegetation Management                                                           42
 2014
           Program (OAS-L-14-05)
           Western Area Power Administration’s Rocky
Mar. 31,   Mountain Regional Office’s Transmission
                                                                                                        42
 2014      Vegetation Management Program
           (OAS-L-14-06)




Energy Inspector General | October 1, 2013 – March 31, 2014                                   Page 11
                                      Semiannual Report to Congress

Inspections

                                                              BETTER
  DATE                                                                 QUESTIONED    UNSUPPORTED
                            REPORT TITLE                      USE OF
 ISSUED                                                                  COSTS          COSTS         PAGE
                                                              FUNDS

            Special Inquiry Report – Review of Allegations
  Oct. 3,   Regarding Prohibited Personnel Practices at
                                                                                                       44
  2013      the Bonneville Power Administration
            (DOE/IG-0895)
            Performance of Work for a Non-Department
 Jan. 29,
            Entity at Lawrence Livermore National                          $81,746                     44
  2014
            Laboratory (INS-O-14-01)
 Mar. 26,   Procurement Internal Control at Los Alamos
                                                                                                       45
  2014      National Laboratory (DOE/IG-0903)
            Review of Controls Over the Department’s
 Mar. 27,
            Classification of National Security Information                                            45
  2014
            (DOE/IG-0904)




   Energy Inspector General | October 1, 2013 – March 31, 2014                                     Page 12
                                     Semiannual Report to Congress

Recovery Act

                                                             BETTER
  DATE                                                                QUESTIONED   UNSUPPORTED
                           REPORT TITLE                      USE OF                                 PAGE
 ISSUED                                                                 COSTS         COSTS
                                                             FUNDS

 Oct. 31,   Recent Events Related to Ecotality, Inc.
                                                                                                      47
  2013      (OAS-RA-14-01)
            The Department of Energy's American
            Recovery and Reinvestment Act Energy
 Nov. 25,
            Efficiency and Conservation Block Grant                                      $3,999       47
  2013
            Program – District of Columbia
            (OAS-RA-14-02)
            Allegations of Potential Fraud and
 Feb. 19,
            Mismanagement of a Smart Grid Investment                                                  48
  2014
            Grant Program Award (OAS-RA-14-03)




    Energy Inspector General | October 1, 2013 – March 31, 2014                                   Page 13
                                 Semiannual Report to Congress

RESULTS
Legislative and Regulatory Reviews

The Inspector General Act of 1978, as amended, requires the OIG to review and comment upon
legislation and regulations relating to Department programs and to make recommendations
concerning the impact of such legislation or regulations on Departmental economy and
efficiency. During this reporting period, the OIG reviewed (and collaborated with Department
program offices, when appropriate) 16 pieces of proposed legislation/regulations.

Reports Lacking Management Decision

The Department has a system in place to track audit and inspection reports and management
decisions. Its purpose is to ensure that recommendations and corrective actions indicated by
audit agencies and agreed to by management are addressed as efficiently and expeditiously as
possible. Listed below is one audit report over six months old that was issued before the
beginning of the reporting period for which no management decision had been made by the
end of the reporting period. The reason a management decision had not been made and the
estimated date by which a management decision will be made is described in the table below.



    DATE
   ISSUED                  REPORT TITLE                         STATUS OF MANAGEMENT DECISION

                                                         The OIG has requested the Department temporarily delay
                Use of Noncompetitive Procurements to
   Apr. 10,                                              submitting a Management Decision on the
                Obtain Services at the Savannah River
    2012                                                 recommendations in this report, pending the outcome of an
                Site (DOE/IG-0862)
                                                         ongoing related review.




Energy Inspector General | October 1, 2013 – March 31, 2014                                          Page 14
                                 Semiannual Report to Congress

Prior Significant Recommendations Not Implemented

As of March 31, 2014, closure actions on recommendations in 44 OIG reports had not been fully
implemented within 12 months from the date of report issuance. The OIG is committed to
working with management to expeditiously address the management decision and corrective
action process, recognizing that certain initiatives will require long-term, sustained, and
concerted efforts. Further, the Department has closed 171 recommendations in the past six
months. Information on the status of any report recommendation can be obtained through the
OIG’s Office of Audits and Inspections.

   DATE                                                                                     # OF OPEN
                                         REPORT TITLE
  ISSUED                                                                                RECOMMENDATIONS

  Dec. 17,   Beryllium Surface Contamination at the Y-12 National Security Complex
                                                                                               1
   2007      (IG-0783)

  Apr 11,    The Department's Progress in Meeting Los Alamos National Laboratory
                                                                                               1
   2008      Consent Order Milestones (IG-0793)
   Sep 3,    Follow-up Audit on Retention and Management of the Department of
                                                                                               2
   2010      Energy's Electronic Records (IG-0838)
  Sep 22,    The Department of Energy's Audit Resolution and Follow-up Process
                                                                                               2
   2010      (IG-0840)
   Mar 3,    The Department of Energy's Loan Guarantee Program for Clean Energy
                                                                                               1
   20011     Technologies (IG-0849)
             Organizational Conflicts of Interest Program at Sandia National
   Jul 13,
             Laboratories                                                                      1
    2011
             (IG-0853)
  Oct 20,
             The Department Unclassified Cyber Security Program-2011 (IG-0856)                 3
   2011
  Mar 26,    Management of Bonneville Power Administration's Information
                                                                                               1
   2012      Technology Program (IG-0861)
  Apr 25,    The Department of Energy's $12.2 Billion Waste Treatment and
                                                                                               2
   2012      Immobilization Plant- Quality Assurance of Black Cells Vessels (IG-0863)
  May 25,    Efforts by the Department of Energy to Ensure Energy-Efficient
   2012                                                                                        2
             Management of Its Data Centers (IG-0865)
  May 31,    Integrated Safety Management at Sandia National Laboratories (IG-
                                                                                               5
   2012      0866)
  Jun 18,    The National Nuclear Security Administration (NNSA) Contractors'
                                                                                               4
   2012      Disability Compensation and Return-to-Work Programs (IG-0867)
  Oct 26,    Review of the Compromise of Security Test Materials at the Y-12
                                                                                               2
   2012      National Security Complex (IG-0875)
   Nov 6,    The Department of Energy's Small Business Innovation Research and
                                                                                               1
   2012      Small Business Technology Transfer Programs (IG-0876)




Energy Inspector General | October 1, 2013 – March 31, 2014                                        Page 15
                                 Semiannual Report to Congress

   DATE                                                                                    # OF OPEN
                                        REPORT TITLE
  ISSUED                                                                               RECOMMENDATIONS
   Nov 8,
             The Department's Unclassified Cyber Security Program - 2012 (IG-0877)            5
   2012
  Dec 11,    Follow-up Audit of the Department's Cyber Security Incident
                                                                                              8
   2012      Management Program (IG-0878)
             Approval of Contractor Executive Salaries by Department of Energy
  Mar 22,
             Personnel                                                                        1
   2013
             (IG-0882)
  Sep 28,    Sandia National Laboratory's Safety Practices (INS-L-07-11, Summary
                                                                                              1
   2007      Not Publically Available - Official Use Only )
   Jul 29,
             Severance Repayments at the Savannah River Site (INS-O-10-02)                    1
    2010
   Nov 5,    Allegations of Organizational Conflicts of Interest at Portsmouth and
                                                                                              4
    2012     Oak Ridge (INS-O-13-01)
  Nov 30,    Tactical Response Force Pursuit Operations at Idaho National Laboratory
                                                                                              2
   2012      (INS-O-13-02)
  Dec 22,    Management Letter on the Audit of the Department of Energy's
                                                                                              1
   2009      Consolidated Financial Statements for Fiscal Year 2009 (OAS-FS-10-03)
             Information Technology Management Letter on the Audit of the
  Dec 21,
             Department of Energy's Consolidated Balance Sheet for Fiscal Year 2010           2
   2010
             (OAS-FS-11-04, Summary Not Publically Available - Official Use Only)
             Information Technology Management Letter on the Audit of the
  Dec 21,
             Department of Energy's Consolidated Balance Sheet for Fiscal Year 2011          10
   2011
             (OAS-FS-12-04, Summary Not Publically Available - Official Use Only )
   Feb 6,    Management Letter on the Audit of the Department of Energy's
                                                                                              7
   2012      Consolidated Financial Statements for Fiscal Year 2011 (OAS-FS-12-05)
  Dec 17,    Management Letter on the Audit of the Department of Energy's
                                                                                             10
   2012      Consolidated Financial Statement for Fiscal Year 2012 (OAS-FS-13-08)
             Department of Energy's Isotope Development and Production for
   Jan 15,   Research and Applications Program's Fiscal Year 2010 Balance Sheet
                                                                                              2
    2013     Audit
             (OAS-FS-13-09)
             Information Technology Management Letter on the Audit of the
   Jan 10,
             Department of Energy's Consolidated Balance Sheet for Fiscal Year 2012           8
    2013
             (OAS-FS-13-10, Summary Not Publically Available - Official Use Only )
             Management Letter on the Department of Energy's Isotope
  Feb 26,
             Development and Production for Research and Applications Program's               1
   2013
             Fiscal Year 2010 Balance Sheet Audit (OAS-FS-13-11)
   Jul 14,   Management Controls over Monitoring and Closeout of Small Business
                                                                                              1
    2008     Innovation Research Phase II Grants (OAS-M-08-09)
  Nov 13,    Management Controls over Selected Aspects of the Department of
                                                                                              2
   2009      Energy's Human Reliability Program (OAS-M-10-01)
  Apr 15,    Security Planning for National Security Information Systems at Lawrence
                                                                                              1
   2011      Livermore National Laboratory (OAS-M-11-03)



Energy Inspector General | October 1, 2013 – March 31, 2014                                       Page 16
                                 Semiannual Report to Congress

   DATE                                                                                  # OF OPEN
                                        REPORT TITLE
  ISSUED                                                                             RECOMMENDATIONS
  Jun 29,
             Office of Secure Transportation Capabilities (OAS-M-12-05)                     2
   2012
  Mar 15,    Cooperative Research and Development Agreements at National
                                                                                            1
   2013      Nuclear Security Administration Laboratories (OAS-M-13-02)
             The Department of Energy's Weatherization Assistance Program under
  Sep 19,
             the American Recovery and Reinvestment Act in the State of Tennessee           1
   2011
             (OAS-RA-11-17)
             Assessment of Changes to the Internal Control Structure and Their
             Impact on the Allowability of Costs Claimed by and Reimbursed to
  Dec 20,
             Sandia Corporation Under Department of Energy Contract No. DE-AC04-            1
   2005
             94AL85000
             (OAS-V-06-06, Summary Not Publically Available - Official Use Only)
             Assessment of Changes to the Internal Control Structure and their
             Impact on the Allowability of Costs Claimed by and Reimbursed to
   Jan 16,
             Sandia Corporation under Department of Energy Contract No.DE-AC04-             1
    2007
             94AL85000 (OAS-V-07-05, Summary Not Publically Available - Official
             Use Only)
             Assessment of Changes to the Internal Control Structure and Their
   May 7,    Impact on the Allowability of Costs Claimed by and Reimbursed to
   2008      Sandia Corporation, under the Department of Energy Contract, DE-               1
             AC04-94AL85000 for FY 2006 (OAS-V-08-09, Summary Not Publically
             Available - Official Use Only)
             Assessment of Changes to the Internal Control Structure and Their
             Impact on the Allowability of Costs Claimed by and Reimbursed to Los
  Aug 24,
             Alamos National Laboratory under Department of Energy Contract                 1
   2009
             No. DE-AC52-06NA25396 from June 1, 2006 to September 30, 2007
             (OAS-V-09-10, Summary Not Publically Available - Official Use Only)
             Audit Coverage of Cost Allowability for Bechtel SAIC Company, LLC
   Jul 29,   during Fiscal Years 2004 through 2009 Under Contract
                                                                                            2
    2010     No. DE-AC28-01RW12101 (OAS-V-10-15, Summary Not Publically
             Available - Official Use Only)
             Audit Coverage of Cost Allowability for Sandia Corporation During
   Oct 5,    Fiscal Years 2007 AND 2008 under Department of Energy Contract
                                                                                            1
   2010      NO. DE-AC04-94AL85000 (OAS-V-11-01, Summary Not Publically
             Available - Official Use Only )
             Assessment of Audit Coverage of Cost Allowability for Los Alamos
             National Laboratory during Fiscal Year 2010 under Department of
  Nov 19,
             Energy Contract                                                                1
   2012
             No. DE-AC52-06NA25396 (OAS-V-13-01, Summary Not Publically
             Available - Official Use Only )
             Assessment of Audit Coverage of Cost Allowability Sandia Corporation
   Feb 20    during Fiscal Years 2009 and 2010 under Department of Energy Contract
                                                                                            4
    2013     No. DE-AC04-94AL85000 (OAS-V-13-07, Summary Not Publically
             Available - Official Use Only)




Energy Inspector General | October 1, 2013 – March 31, 2014                                     Page 17
                                 Semiannual Report to Congress

   DATE                                                                                # OF OPEN
                                        REPORT TITLE
  ISSUED                                                                           RECOMMENDATIONS
             Assessment of Changes to the Internal Control Structure and Their
             Impact on the Allowability of Cost Claimed by and Reimbursed to TRW
  Mar 12,    Environmental Safety Systems, Inc. Under Department of Energy
                                                                                          2
   2002      Contracts
             No. DE-AC01-91RW00134 and No. DE-AC08-RW00134 (WR-V-02-03,
             Summary Not Publically Available - Official Use Only )


                   Total Open Recommendations                 113




Energy Inspector General | October 1, 2013 – March 31, 2014                                   Page 18
                                              Semiannual Report to Congress


                                          AUDIT AND INSPECTION REPORTS WITH
                                      RECOMMENDATIONS FOR BETTER USE OF FUNDS
                                           OCTOBER 1, 2013 – MARCH 31, 2014

    The following table shows the total number of audit and inspection reports and the total dollar value of the recommendations
    that funds be put to better use by management.
                                                                                                              TOTAL        BETTER USE
                                                                                                             NUMBER         OF FUNDS
Reports issued before the reporting period that included recommendations for better use of                           1                    2
                                                                                                                17        $535,976,873
funds for which decisions on dollars had not been made as of September 30, 2013:
Reports issued during the reporting period that include recommendations for better use of funds
                                                                                                                 4          $12,618,652
(regardless of whether a decision on dollars has been made):



Reports that include recommendations for better use of funds for which a decision on dollars                      3
                                                                                                                1            $1,103,608
was made during the reporting period:

         (i) Agreed to by management:                                                                                                    $0

                                                                                                                                          4
         (ii) Not agreed to by management:                                                                                   $1,103,608

Reports that include recommendations for better use of funds for which decisions on dollars
                                                                                                                20         $547,491,917
have not been made at the end of the reporting period:
    Better Use of Funds: Funds that could be used more efficiently by implementing recommended actions.
    Management decision: Management’s evaluation of the finding and recommendations included in the audit report and the issuance of a
    final decision by management concerning its response.
1
 Includes reports for which the Department may have made some decisions on dollars but not all issues within the report have been
  resolved.
2
  Dollar amount includes an administrative correction by the Department for $16,618 from a previous reporting period.
3
 Does not include reports for which the Department has made decisions on some aspects of the report but not all.
4
 Includes $16,618 previously reported by the Department as “agreed to by management.” During this reporting period, the Department
  amended its decision and notified the OIG that these funds are “not agreed to by management.”




         Energy Inspector General | October 1, 2013 – March 31, 2014                                                       Page 19
                                               Semiannual Report to Congress


                                            AUDIT AND INSPECTION REPORTS WITH
                                          QUESTIONED AND/OR UNSUPPORTED COSTS
                                             OCTOBER 1, 2013 – MARCH 31, 2014

    The following table shows the total number of audit and inspection reports and the total dollar value of questioned and/or
    unsupported costs.
                                                                    TOTAL         QUESTIONED          UNSUPPORTED              TOTAL
                                                                   NUMBER           COSTS                COSTS                 COSTS
Reports issued before the reporting period that included
                                                                           1                     2
questioned and/or unsupported costs for which decisions               48         $1,413,370,585          $17,737,060        $1,431,107,645
on dollars had not been made as of September 30, 2013:
Reports issued during the reporting period that include
questioned or unsupported costs (regardless of whether a               7             $19,382,593               $3,999          $19,386,592
decision on dollars has been made):



    Reports that include questioned and/or unsupported
                                                                        3
    costs for which a decision on dollars was made during the          6             $13,620,368                    $0         $13,620,368
    reporting period:

         (i) Value of disallowed costs:                                               $1,539,243                    $0          $1,539,243

         (ii) Value of costs not disallowed:                                         $12,081,125                    $0         $12,081,125

    Reports that include questioned and/or unsupported
    costs for which decisions on dollars have not been made            49         $1,419,132,810         $17,741,059        $1,436,873,869
    at the end of the reporting period:
    Questioned costs: A cost that is (1) unnecessary; (2) unreasonable; (3) or an alleged violation of law, regulation, contract, etc.
    Unsupported costs: A cost that is not supported by adequate documentation.
    Management decision: Management’s evaluation of the finding and recommendations included in the audit and inspection report and the
    issuance of a final decision by management concerning its response.

1
 Includes reports for which the Department may have made some decisions on dollars but not all issues within the report have been
  resolved.
2
 Dollar amount includes an administrative correction by the Department of $7,514,486 from a previous reporting period.
3
 Does not include reports for which the Department has made decisions on some aspects of the report but not all.




          Energy Inspector General | October 1, 2013 – March 31, 2014                                                       Page 20
                                    Semiannual Report to Congress


                                        INVESTIGATIVE ACTIVITY
                                    OCTOBER 1, 2013 – MARCH 31, 2014

CASE ACTIVITY

Cases open as of October 1, 2013                                                                                    236

    Cases opened during period                                                                                        47

    Cases closed during period                                                                                        57

Multi-Agency Task Force Cases Opened                                                                                  16

         1
Qui Tam investigations opened during period                                                                            3

    Total Open Qui Tam investigations as of March 31, 2014                                                            15

Cases currently open as of March 31, 2014                                                                           226

IMPACT OF INVESTIGATIONS

Administrative discipline and other management actions                                                                46

Recommendations to management for positive change and other actions                                                   36

Suspensions/Debarments                                                                                                20

                            2
Accepted for prosecution                                                                                              14

Indictments                                                                                                           13

Criminal convictions                                                                                                   6

Pre-trial diversions                                                                                                   1

Civil actions                                                                                                          5

                        3
TOTAL DOLLAR IMPACT (FINES, SETTLEMENTS, RECOVERIES)                                                     $6,185,841.78

1
 For more information on Qui Tams, go to: http://www.justice.gov/usao/eousa/foia_reading_room/usam/title9/crm00932.htm
2
 Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting
  period.
3
 Some of the money collected was the result of investigations involving multiple agencies.



Energy Inspector General | October 1, 2013 – March 31, 2014                                                     Page 21
                                        Semiannual Report to Congress


                                               HOTLINE ACTIVITY
                                        OCTOBER 1, 2013 – MARCH 31, 2014

                                                                                                                                      1
TOTAL HOTLINE CONTACTS                                                                                                       1,679

    Hotline contacts resolved immediately/redirected/no further action                                                        1,454

    Hotline contacts predicated for evaluation                                                                                  225

TOTAL HOTLINE PREDICATIONS PROCESSED THIS REPORTING PERIOD                                                                      231

    Hotline predications transferred to OIG Program Office                                                                       26

    Hotline predications referred to Department management or other entity for information/action                                95

    Hotline predications closed based upon preliminary OIG activity and review                                                  103

    Hotline predications open at the end of the reporting period                                                                      7

1
 In prior reporting periods, this number included all contacts with the Hotline regardless of the nature or subject of the contact.
Beginning with this reporting period, this number only includes contacts which require action by OIG employees.




Energy Inspector General | October 1, 2013 – March 31, 2014                                                               Page 22
                                   Semiannual Report to Congress


                             WHISTLEBLOWER RETALIATION COMPLAINTS
                                OCTOBER 1, 2013 – MARCH 31, 2014

Recovery Act Whistleblower Retaliation Complaints received                                    2

Accepted complaints carried over from prior period(s)                                         2

DISPOSITION OF WHISTLEBLOWER RETALIATION COMPLAINTS

   Reports Issued                                                                             1

Complaints Dismissed

     Elected another forum                                                                    0

     Complaints withdrawn                                                                     1

     Upon receipt of Complaint, determined not related to covered funds at the outset         0

     After investigation, determined not related to covered funds after investigation         0

   Recovery Act Complaints that received extensions                                           1




Energy Inspector General | October 1, 2013 – March 31, 2014                             Page 23
                                  Semiannual Report to Congress


                                  PEER REVIEWS CONDUCTED BY OIG
                                  OCTOBER 1, 2013 – MARCH 31, 2014

                                                                   OIG            OUTSTANDING
TYPE OF REVIEW               DATE OF PEER REVIEW
                                                                REVIEWED       RECOMMENDATIONS

    Audits                 None this reporting period.

 Investigations            None this reporting period.




                                  PEER REVIEWS CONDUCTED OF OIG
                                  OCTOBER 1, 2013 – MARCH 31, 2014

                                                         REVIEWING    FREQUENCY       OUTSTANDING
TYPE OF REVIEW          DATE OF PEER REVIEW
                                                            OIG      REQUIREMENT   RECOMMENDATIONS

    Audits            None this reporting period.

Investigations        None this reporting period.




 Energy Inspector General | October 1, 2013 – March 31, 2014                               Page 24
                                 Semiannual Report to Congress

SUMMARIES
Investigative Outcomes

Former Department Contractor Enters into Repayment Agreement
A contractor employee entered into a repayment agreement to pay the Department
$13,382.72 as a result of an investigation. The investigation revealed the contractor employee
was paid for 354 hours of sick leave that was taken while the contractor employee was
performing outside employment.

Department Employee Resigns in Lieu of Termination
As a result of an investigation, a Department Program Manager resigned from employment in
lieu of termination. In addition, a target letter was issued by the U.S. Attorney’s Office in the
Eastern District of Tennessee. The investigation determined the former employee submitted
multiple fraudulent travel vouchers totaling $21,000, and fraudulent time and attendance
documents for work not performed totaling approximately $75,000. This is a joint investigation
with the Nuclear Regulatory Commission OIG.

Former Western Area Power Administration Employee Sentenced
A former Western Area Power Administration employee was sentenced in U.S. District Court,
District of Montana, to 4 years probation and ordered to pay restitution to the Department in
the amount of $83,700. The investigation determined the former employee defrauded the
Department of Labor’s Workers Compensation Program by not reporting self-employment
income, resulting in long-term disability overpayments of approximately $275,000. This is a
joint investigation with the Department of Labor OIG.

Settlement Agreement with Energy Efficiency and Conservation Block Grant Recipient
In response to an Investigative Report to Management, the Department signed a $31,783
settlement agreement with an Energy Efficiency and Conservation Block Grant (EECBG)
recipient. The OIG investigation determined the EECBG recipient hired consultants to assist in
awarding an EECBG project that was subsequently awarded to another company employing the
same consultants. These actions violated an EECBG provision concerning conflicts of interest.

Guilty Plea in Savannah River Site False Statements Investigation
A former contractor employee pleaded guilty to one count of False Statements in U.S. District
Court in the District of South Carolina. As previously reported, a Federal Grand Jury indicted
the former contractor employee after the investigation determined the former contractor
employee used another family member’s personally identifiable information to obtain a
Savannah River Site badge to prevent disclosure of a previous bankruptcy and to receive per
diem payments for which the individual was not entitled.




Energy Inspector General | October 1, 2013 – March 31, 2014                               Page 25
                                 Semiannual Report to Congress

Five Former Contractor Employees Indicted and Arrested
As the result of an investigation, five former contractor employees were indicted by a Federal
Grand Jury in the District of South Dakota and were subsequently arrested for conspiracy to
commit theft. The investigation determined the individuals used a scheme to generate false
vouchers and were paid for work not performed. The individuals received in excess of $80,000
and admitted to using the money for illegal drugs and personal hotel stays. This is a joint
investigation with Health and Human Services OIG.

Interim Distribution of Bankruptcy Proceeds in Defective Body Armor Case
As previously reported, a joint investigation was conducted into allegations that a body armor
manufacturer knowingly participated in the manufacturing and sale of defective body armor.
The manufacturer sold this defective body armor to the Department, as well as to other
Federal, state, local, and tribal law enforcement agencies. Several individual companies that
provided component parts of the armor, or the armor itself, previously agreed to pay a total of
$60 million to resolve allegations that they violated the False Claims Act. During this reporting
period, the U.S. Bankruptcy Court for the District of Delaware approved a second interim
distribution order filed by the Trustee in Bankruptcy for Second Chance Body Armor, a
corporation involved in the manufacture and sale of defective Zylon body armor to the U.S.
Government. The order allowed an interim distribution of $20 million to be divided among the
general unsecured creditors, including the U.S. Government which received $384,429.07. This is
an ongoing joint investigation with the U.S. Department of Justice Civil Division and several
other Federal law enforcement agencies.

Settlement Reached with Department Grantee
As the result of an investigation, a Department grantee agreed to pay $1.23 million to resolve
False Claims Act allegations. The investigation determined the grantee submitted claims to the
Department to obtain wages and benefits paid to workers who were engaged in non-work
activities such as watching movies, playing games, and performing volunteer work.

Former University of Kentucky Professor Enters Pretrial Diversion Agreement
As part of a pretrial diversion agreement entered in U.S. District Court in the District of South
Carolina, a former University of Kentucky professor will serve 18 months supervised release,
make restitution to the Department in the amount of $111,664, and complete 100 hours of
community service. As previously reported, the former professor was indicted for Theft of
Government Property after an investigation determined the former professor cannibalized,
destroyed, and failed to return certain Government-owned scientific equipment, books, and
supplies. The OIG has recovered all of the known missing equipment.

Former Subcontractor Employee Debarred in Weatherization Program Investigation
In response to an Investigative Report to Management, the Department debarred a former
weatherization subcontractor from doing business with the Federal Government for a period of
3 years. The investigation determined two officers of a community-based organization



Energy Inspector General | October 1, 2013 – March 31, 2014                                  Page 26
                                 Semiannual Report to Congress

converted approximately $150,000 of Recovery Act grant monies for their personal use. This is
a continuing investigation and is being considered for prosecution by the U.S. Attorney’s Office
in the District of Columbia.

Weatherization Expenditures Disallowed
As the result of an Investigative Report to Management, the Department disallowed $486,192
in weatherization funds to the State of West Virginia. The investigation determined that a West
Virginia sub-grantee had been reimbursed for unallowable and unsubstantiated weatherization
costs.

Action Taken in Response to an Investigative Report to Management Involving the Control
and Accountability of Precious Metals
In response to an Investigative Report to Management, the Department complied with
recommendations made concerning the storage and accountability of precious metals. The
investigation determined that a Department laboratory had internal control weaknesses in its
accountability and controls of precious metals and established Department policies were not
being followed. The investigation was initiated after Department laboratory staff reported to
the OIG that they could not account for over $12,000 worth of precious metals, and the
possibility existed that the metals were stolen. The metals were eventually located at the
Department laboratory.

Sentencing in Weatherization Fraud and Bribery Investigation
A former employee of a California non-profit agency was sentenced to 24 months
imprisonment; however, 16 months were suspended with the remaining 8 months to be served
by electronic monitoring. The former employee of the non-profit agency was also sentenced to
3 years probation, ordered to pay $323,991 in restitution and $630 in fines and assessment
fees. The investigation determined the former employee of the non-profit agency submitted
false claims on weatherization contract work and solicited and accepted bribes from a
subcontractor totaling approximately $1.2 million. The former employee also submitted
inflated claims to the State of California that resulted in overbilling to the Department and the
U.S. Department of Health and Human Services by approximately $440,000.

Suspension in False Claims Investigation
In response to a referral by the OIG, the Department suspended a former Lawrence Livermore
National Laboratory employee for submitting inaccurate timecards and receiving unjustified
compensation based on the inaccurate submissions.

Administrative Actions Taken Against Former Social Security Administration Beneficiary
As a result of a joint investigation with the Social Security Administration (SSA) OIG, the
Government recovered $18,282 in fraudulent benefits paid to a Savannah River Site contractor
employee’s spouse. Additionally, this investigation prevented future fraudulent benefits from
being paid to the contractor employee’s spouse resulting in a cost savings of $141,917. The



Energy Inspector General | October 1, 2013 – March 31, 2014                               Page 27
                                 Semiannual Report to Congress

investigation determined the contractor employee and their spouse submitted false documents
to SSA making it appear the spouse was eligible to receive SSA benefits when in fact the spouse
was ineligible.

Funds Put to Better Use in False Claims Investigation
As a result of an ongoing OIG investigation, Sandia National Laboratories (Sandia) did not
extend the final option year of a subcontractor’s contract. Sandia estimated a cost savings to
the Department of approximately $2.2 million, which will be put to better use.

Former National Energy Technology Laboratory Director Indicted
The former Director of the National Energy Technology Laboratory was indicted on a charge of
obstruction of justice for attempting to alter documents and influence witness testimony in
connection with an inquiry into allegations that he had misused his position. After being
interviewed by the OIG, the former Director resigned from employment with the Department.
This is an ongoing investigation.

Settlement Agreement Reached in Cost Mischarging Investigation
As the result of an investigation, a Department contractor agreed to reimburse the United
States $414,828 for mischarges submitted to the Department and the Department of Defense.
The mischarges were revealed by the contractor in a Contractor Disclosure Report pursuant to
Federal Acquisition Regulations. The OIG joint investigation with the Defense Criminal
Investigative Service determined that the contractor’s employees were instructed by a former
Director of the company to change timekeeping entries to match internal financial projections
rather than reflect their actual hours worked.

Administrative Actions Taken Against Former Department Contractor Employee
As a result of an investigation, a contractor employee at the Idaho National Laboratory was
terminated for the improper use of Government property. Property valued at approximately
$67,703 was recovered from the contractor employee’s residence. In addition to the recovery
of Government property, the contractor employee was denied a year-end award valued at
approximately $68,000.

Guilty Plea by Former State of Texas Official in Recovery Act Grant Fraud Investigation
A former State of Texas grant administrator pled guilty to one count of Misuse of Official
Information. The administrator will serve 3 years probation, pay $2,500 in restitution, and
cannot be employed in a position that manages grant funds. The investigation determined the
owner of a Department subcontractor company and the former administrator conspired to
submit fraudulent documents and make false claims to obtain approximately $2 million in
Recovery Act funds. The owner of the company was previously found guilty and sentenced to
15 years incarceration.

Former Lawrence Livermore National Laboratory Employee Arraigned
A former Lawrence Livermore National Laboratory employee was arrested on two felony
warrants for Grand Theft and Possession of Stolen Property and was arraigned in the Superior

Energy Inspector General | October 1, 2013 – March 31, 2014                               Page 28
                                 Semiannual Report to Congress

Court of California. An investigation determined the former employee stole optical devices,
toner cartridges, and computer parts valued at approximately $58,000 and sold them on eBay.

Employee Terminated at Los Alamos National Laboratory for Misuse of Gas Card
A Los Alamos National Laboratory employee was terminated as a result of misusing several
General Services Administration fuel cards on multiple occasions. The investigation determined
the employee used several fuel cards to purchase gasoline for personal use. This investigation
is being coordinated with the First Judicial District Attorney’s Office for the State of New
Mexico.

Civil Complaint Filed Against Department Contractors in Connection with False Claims
Violations
The U.S. Attorney’s Office for the Eastern District of Washington filed a civil complaint under
the False Claims Act. The complaint alleged three Department contractors and company owner
falsely claimed credit for awarding tens of millions of dollars in Federal subcontracting business
to qualified small businesses. The investigation substantiated that a Department prime
contractor claimed small businesses were performing subcontract work, but the work was
actually performed by another Department subcontractor that does not qualify as a small
business.

Monetary Recovery in Kickback Investigation
As a result of an investigation, the management and operating contractor for the Pantex Plant
agreed to reimburse the Department $40,942. The investigation involves allegations that a
procurement official accepted gratuities in exchange for awarding a $228,000 contract for
outside legal services. This is an ongoing investigation and is being coordinated with the U.S.
Attorney’s Office for the Northern District of Texas.

Former State of Texas Official Sentenced in Recovery Act Grant Fraud Investigation
A former State of Texas Grant Administrator was sentenced to 3 years probation, ordered to
pay $2,500 in restitution and is barred from being employed in a position that manages Federal
grant funds. The investigation determined the owner of a Department subcontractor company
and the former State of Texas official conspired to submit fraudulent documents and make
false claims to obtain approximately $2 million in Recovery Act funds. As previously reported,
the owner of the subcontractor company was convicted of fraud and an unrelated weapons
violation and is currently serving a 15-year prison sentence.

Individual Pleads Guilty in Computers for Learning Program Fraud Investigation
An individual who created multiple fraudulent not-for-profit entities and made false
representations to obtain computers and related equipment from the General Services
Administration’s (GSA) Computers for Learning program pleaded guilty to wire fraud,
aggravated identity theft, and filing a false tax return. The investigation determined the
individual fraudulently obtained the computers and related equipment and sold them for
personal gain. It was determined the original acquisition value of the equipment totaled


Energy Inspector General | October 1, 2013 – March 31, 2014                                  Page 29
                                 Semiannual Report to Congress

more than $30 million. This was a joint investigation with the Federal Bureau of Investigation,
GSA OIG, Internal Revenue Service, and the Department of Transportation OIG.

Contractor Settles with the Department in False Claims Investigation
A Department contractor complied with the terms of a previous civil settlement and paid the
U.S. Government $1.23 million to resolve its potential False Claims Act liability. The
Department received $200,403 of this amount. As previously reported, the OIG investigation
determined the contractor submitted claims to the Department to obtain wage and benefit
reimbursements for workers who were engaged in unallowable activities.

Contract Employee’s Site Access Revoked
A contract employee’s access to a Department site was revoked after an investigation found
that the employee was attempting to steal Government property. The investigation
determined the employee was attempting to steal industrial equipment by placing the items in
a personally owned vehicle and leaving the site. The employee was stopped by site security
and interviewed by OIG investigators. After interviewing the employee and inspecting the
equipment, it was determined the items were the property of the U.S. Government.
Prosecution is pending in this investigation.

Former Community Action Agency Director Sentenced and Debarred
As a result of an OIG investigation, the former Director of a Community Action Agency was
sentenced to 12 months and 1 day imprisonment and 12 months supervised release after
pleading guilty to embezzling more than $50,000 in Federal Recovery Act funds and using the
funds for personal gain. In addition, the former Director was debarred from Federal
Government contracting.

Individual Pleads Guilty in Access Device Investigation
Following a joint investigation with the FBI and the Office of Personnel Management OIG, an
individual pleaded guilty to multiple violations of access device fraud and aggravated identity
theft. The investigation determined the individual gained access to multiple Defense Finance
and Accounting Service “MyPay” accounts of Department employees and altered the direct
deposit information to have paychecks diverted to suspect bank accounts.

Sentencing in False Statements Investigation
A former contractor employee was sentenced to 3 years probation after pleading guilty to
making false statements. The investigation determined the former employee made false
statements by providing personally identifiable information of another person in an attempt to
obtain an access badge to a Department site.

Response to Investigative Report to Management in Conflict of Interest Investigation
In response to an Investigative Report to Management, a Department Site Manager reassigned
a Small Business Program Manager (Manager) and sanctioned the individual with 10 days of
leave without pay. The investigation determined the Manager’s brother worked for a
Department subcontractor that received a Department Mentor-Protégé award. This award

Energy Inspector General | October 1, 2013 – March 31, 2014                                Page 30
                                 Semiannual Report to Congress

allowed the subcontractor to obtain a sole-source $24 million contract. The Manager did not
disclose cohabitation with the brother or that the brother’s paychecks were deposited directly
into the Manager’s bank account. In addition, the Manager solicited and obtained $5,000 from
the subcontractor for a charity event the Manager helped organize. This is an ongoing
investigation.

Guilty Plea in Solar Rebate Program Investigation
A subcontractor pleaded guilty to one count of theft of Government funds in connection with
fraudulently applying for Recovery Act incentive rebate monies that were designated for the
purchase of energy efficient thermal heating systems. The investigation determined the
subcontractor violated Recovery Act rules by utilizing repurposed solar panels on Recovery Act
projects and used the program to install a heating system on a swimming pool. Additionally,
the subcontractor submitted inflated claims regarding Recovery Act work, thus overbilling the
Department by approximately $23,000.

Sentencing in Y-12 Destruction Case
As a result of an OIG investigation, three individuals previously convicted of damaging property
at the Y-12 National Security Complex were sentenced in the Eastern District of Tennessee.
One individual was sentenced to 35 months incarceration, while the other two individuals were
each sentenced to 62 months incarceration. In addition, the individuals will serve 3 years
supervised release upon their release from prison, and will jointly be responsible for $52,953 in
restitution to the Department. As previously reported, the individuals illegally entered the Y-12
complex, cut through fences, and caused damaged to the Highly Enriched Uranium Materials
Facility.

Subcontractors Debarred in Weatherization Program Investigation
In response to an Investigative Report to Management, the Department debarred a former
weatherization subcontracting agency and its Executive Director from doing business with the
Federal Government for a period of 3 years. As previously reported, the investigation
determined two officers of a community-based organization converted approximately $150,000
of Recovery Act grant monies for their personal use. This is an ongoing investigation.

Response to Investigative Report to Management Issued in Misuse of Position Investigation
In response to an Investigative Report to Management, a formal letter of reprimand was issued
and a Department official was ordered to undergo training and counseling. The other
Department official involved in the investigation retired from Federal service following
proposed disciplinary action. The investigation determined that a senior Department official
facilitated the employment of another official’s child with a Department contractor.

Grantee Settles False Claims Case
As a result of an OIG investigation, the U.S. Department of Justice and the U.S. Attorney’s Office
for the Eastern District of North Carolina, reached a settlement agreement with a Department
grantee. The grantee agreed to pay $2.7 million to settle allegations that they violated the
False Claims Act by making false statements and claims to the Department and the Nuclear

Energy Inspector General | October 1, 2013 – March 31, 2014                                Page 31
                                 Semiannual Report to Congress

Regulatory Commission concerning an advanced nuclear reactor design. The investigation
determined the grantee concealed known flaws in its steam dryer analysis and falsely
represented they had properly analyzed the steam dryer in accordance with applicable
standards. This was a joint investigation with the Nuclear Regulatory Commission OIG.

Department Manager Suspended for Misuse of Position
As a result of an OIG investigation, a Department Manager was issued a formal letter of
reprimand and suspended for a period of 7 days. The investigation determined the Department
Manager misused his position by facilitating the employment of a family friend with a
Department contractor.

Sentencing in Child Pornography Investigation
A former Lawrence Berkeley National Laboratory employee was sentenced in U.S. District Court
for the Northern District of California to 10 years of incarceration, followed by 10 years
supervised release for downloading and viewing child pornography. The investigation
determined the former employee viewed and downloaded numerous images of child
pornography onto his Department-issued computer. A search warrant at his residence resulted
in the discovery of a larger child pornography collection. As previously reported, a jury
convicted the former employee, a convicted and registered sex offender, of possessing and
accessing child pornography with the intent to view.

Former Department Contractor Employee Sentenced in OIG Bribery Case
As a result of an OIG investigation, a former Department contractor employee was sentenced in
U.S. District Court for the District of Minnesota to 3 years probation and ordered to forfeit
$20,000 as a result of the conviction. The investigation determined the former employee
received cash bribes from subcontractors in Taiwan who were working on a National Nuclear
Security Administration project, and he transported as much as $70,000 in cash back to the
United States without declaring it to Customs and Border Protection. As previously reported,
the former Department contractor employee pled guilty to one count of bulk cash smuggling.

Sentencing in North Carolina Weatherization Assistance Program Investigation
After pleading guilty to embezzlement and conspiracy to commit embezzlement, a former
Director of the Weatherization Assistance Program for a local community action agency was
sentenced to 24 months incarceration; 3 years supervised release; and ordered to pay
$386,291.50 in restitution. The investigation determined the former Director received
monetary kickbacks from relatives who presented themselves as local contractors in order to
be selected for weatherization work. This is a joint investigation with the Federal Bureau of
Investigation and the North Carolina State Bureau of Investigation.




Energy Inspector General | October 1, 2013 – March 31, 2014                              Page 32
                                 Semiannual Report to Congress

Audit Reports

The Federal Energy Regulatory Commission's Unclassified Cyber Security Program – 2013
The Federal Energy Regulatory Commission (Commission) is an independent agency within the
Department responsible for, among other things, regulating the interstate transmission of the
Nation's electricity, natural gas and oil. To help protect against continuing cyber security
threats, the Commission estimated that it would spend approximately $5.8 million during FY
2013 to secure its information technology assets, a 9 percent increase compared to FY 2012.

The Federal Information Security Management Act of 2002 (FISMA) established requirements
for Federal agencies related to the management and oversight of information security risks and
to ensure that information technology resources were adequately protected. As directed by
FISMA, the OIG conducted an independent evaluation of the Commission's unclassified cyber
security program to determine whether it adequately protected data and information
systems. This report presents the results of our evaluation for FY 2013.

The Commission had taken action to improve its cyber security posture and mitigate risks
associated with the weaknesses identified during our FY 2012 evaluation. Our current
evaluation, however, disclosed that additional opportunities existed to better protect
information systems and data. In particular, we continued to identify weaknesses related to
the Commission's timely remediation of software vulnerabilities. Due to security
considerations, information on specific vulnerabilities has been omitted from this report;
however, management was provided with detailed information regarding identified
vulnerabilities. The Commission concurred with the report's recommended action and stated
that it had initiated corrective action to address weaknesses identified in the report.
(OAS-M-14-01)

The Department's Fleet Vehicle Sustainability Initiatives at Selected Locations
In FY 2012, the Department's fleet consisted of 14,457 vehicles operated at an annual cost of
approximately $131 million. Nearly 72 percent of the vehicles were leased through the General
Services Administration, with the remaining Department-owned and commercially leased.

While Los Alamos National Laboratory and the Bonneville Power Administration had taken
steps designed to improve economy and reduce emissions, they had not always managed their
substantial vehicle fleets in a cost-effective or efficient manner, nor did they take all prudent
steps to advance the use of alternative fuels. Specifically, these organizations leased flex-fuel
vehicles that were routinely fueled with gasoline instead of alternative fuels and did not
optimize the size of their fleets.

The issues we identified occurred primarily because Departmental policies and procedures had
not incorporated changes necessary to achieve optimal fleet inventory with regard to the type
and number of vehicles. Further, the policies did not reflect the need for procedures to locate
alternative fuel vehicles near alternative fueling stations. We also noted that fleet vehicles
were effectively managed and appropriately updated to achieve sustainability at the Savannah

Energy Inspector General | October 1, 2013 – March 31, 2014                                Page 33
                                 Semiannual Report to Congress

River Site. The Office of Management and the National Nuclear Security Administration
generally agreed with our findings and recommendations and submitted planned corrective
actions that are fully responsive to our recommendations. (DOE/IG-0896)

The Department of Energy's Unclassified Cyber Security Program – 2013
Cyber security threats are a major concern for all Federal entities, including the Department of
Energy. The Federal Information Security Management Act of 2002 (FISMA) established the
requirement for Federal agencies to develop, implement and manage agency-wide information
security programs, and provide acceptable levels of security for the information and systems
that support the operations and assets of the agency. As part of our responsibilities under
FISMA, the OIG conducts an annual independent evaluation to determine whether the
Department's unclassified cyber security program adequately protected its unclassified data
and information systems.

The Department had taken a number of positive steps over the past year to correct cyber
security weaknesses related to its unclassified information systems, including corrective actions
to resolve 28 of the 38 conditions we identified during our FY 2012 evaluation. In spite of these
efforts, we found that significant weaknesses and associated vulnerabilities continued to
expose the Department's unclassified information systems to a higher than necessary risk of
compromise. Our testing revealed various weaknesses related to security reporting, access
controls, patch management, system integrity, configuration management, segregation of
duties and security management. In total, we discovered 29 new weaknesses and confirmed
that 10 weaknesses from the prior year's review had not been resolved. These problems were
spread across 11 of the 26 Department locations where we performed testing.

The weaknesses identified occurred, in part, because Department elements had not ensured
that cyber security requirements were fully developed and implemented. Management
concurred with our findings and recommendations and has taken and/or initiated corrective
actions. (DOE/IG-0897)

Management of Tritium within the National Nuclear Security Administration
The National Nuclear Security Administration (NNSA) is responsible for producing tritium, a key
component necessary for maintaining the Nation's nuclear weapons stockpile. NNSA's nuclear
weapons Readiness Campaign coordinates with the Department of Defense to determine
stockpile requirements and provide annual updates on tritium production and inventory
status. The Tritium Readiness subprogram provides the capability for producing tritium needed
for the Nation's nuclear weapons mission.

Based on our review, we determined that NNSA is effectively managing tritium supplies to meet
nuclear weapons needs. NNSA currently maintains tritium supply levels slightly above demand
levels and projects that future supplies will be maintained at similar levels. At the time of our
review, NNSA had developed plans to increase the number of tritium-producing burnable
absorber rods (TPBARs) irradiated per reactor cycle as the demand for tritium increases. NNSA
plans called for a steady increase in the number of TPBARs irradiated per reactor cycle to a

Energy Inspector General | October 1, 2013 – March 31, 2014                               Page 34
                                 Semiannual Report to Congress

maximum of 2,000 TPBARs in 1 reactor. Should future demands require more than 2,500
TPBARs per reactor cycle, Tennessee Valley Authority will have to use more than 1 reactor to
irradiate the TPBARs.

While NNSA is effectively managing tritium supplies to meet nuclear weapons needs in the near
term, we found that several key actions should be completed to ensure that future tritium
supplies are not disrupted. We provided suggested actions to ensure the long-term supply of
tritium for the Nation's nuclear weapons mission. (OAS-L-14-01)

Contract Awards to Small Businesses Under the Mentor-Protégé Program
The goal of the Department's Mentor-Protégé Program is to provide an opportunity for eligible
small businesses to receive developmental assistance in business and technical areas. The
Department utilizes the Program to increase the participation of small businesses as prime
contractors, as well as subcontractors to prime contractors. During calendar years 2010, 2011
and 2012, the Department had over 100 mentor-protégé agreements in place.

Our audit disclosed that the Department had not always effectively managed the
Program. Specifically, we identified 13 protégés that, prior to entering the program, appeared
to possess the capabilities typically developed by small businesses through participation in the
Program. Additionally, we identified six mentor-protégé agreements with durations that
appeared excessive. Further, we identified four protégés that successfully graduated from the
Program at one Department site and subsequently entered into mentor-protégé agreements at
other sites.

These issues occurred because the Department did not have an adequate control structure in
place for effective oversight of the Program. Specifically, the Department lacked sufficient
policies to assist mentors in the solicitation and selection of protégés, did not monitor the
progress of each protégé throughout the duration of the agreement, and did not maintain an
adequate tracking system to accurately account for all protégés. Management concurred with
the report's recommendations and identified planned actions that are responsive to our
recommendations. (DOE/IG-0898)

Federal Energy Regulatory Commission's FY 2013 Financial Statement Audit
We contracted with the independent public accounting firm of KPMG, LLP (KPMG) to conduct
the audit, subject to our review. KPMG is responsible for expressing an opinion on the
Commission's financial statements and reporting on applicable internal controls and
compliance with laws and regulations. We monitored audit progress and reviewed the audit
report and related documentation.

KPMG concluded that the financial statements present fairly, in all material respects, the financial
position of the Commission as of and for the years ended September 30, 2013 and 2012, and its
net costs, changes in net position, budgetary resources and custodial activities for the years then
ended, in conformity with generally accepted accounting principles. (OAS-FS-14-01)


Energy Inspector General | October 1, 2013 – March 31, 2014                                Page 35
                                 Semiannual Report to Congress

Management Challenges at the Department of Energy – FY 2014
With its critically important missions in mind, we identify what it considers to be the most
significant management challenges facing the Department each year. The purpose of this effort
is to identify challenges to the Department's wide-ranging operations as well as problems with
specific management processes. The overall goal is to focus attention on key issues with the
objective of aiding Department managers in their efforts to enhance the effectiveness of
agency programs and operations.

Based on the results of our body of work over the past year, in our judgment, the management
challenges list for FY 2014 remains largely consistent with that of the previous year. These
challenges include: operational efficiency and cost savings, contract and financial assistance
award management, cyber security, environmental cleanup, human capital management,
nuclear waste disposal, safeguards and security, and stockpile stewardship. (DOE/IG-0899)

Department of Energy's July 2013 Cyber Security Breach
To facilitate its administrative and operational needs, the Department maintains a substantial
amount of personally identifiable information (PII). The Department's Management
Information System (MIS) provides a gateway for users to access a system known as the DOE
Employee Data Repository (DOEInfo) database. Because of the importance of ensuring the
security of the Department's systems and sensitive information and at the request of the Chief
Information Officer, we commenced a special review into the circumstances surrounding the
MIS/DOEInfo breach.

In spite of a number of early warning signs that certain personnel-related information systems
were at risk, the Department had not taken action necessary to protect the PII of a large
number of its past and present employees, their dependents and many contractors. We
concluded that the July 2013 incident resulted in the exfiltration of a variety of PII on over
104,000 individuals. Our review identified a number of technical and management issues that
contributed to an environment in which this breach was possible. We also identified numerous
contributing factors related to inadequate management processes. We also found that the
extent of PII stolen was much more extensive than that originally reported by the Department.

These issues created an environment in which the cyber security weaknesses we observed
could go undetected and/or uncorrected. While we did not identify a single point of failure that
led to the MIS/DOEInfo breach, the combination of the technical and managerial problems we
observed set the stage for individuals with malicious intent to access the system with what
appeared to be relative ease. Management concurred with our recommendations and
indicated that it had taken and/or initiated corrective actions. (DOE/IG-0900)

Department of Energy's Nuclear Waste Fund's FY 2013 Financial Statement Audit
We contracted with the independent public accounting firm of KPMG, LLP (KPMG) to conduct
an audit of the Department's Nuclear Waste Fund's FY 2013 balance sheet and the related
statements of net cost, changes in net position and combined statements of budgetary
resources.

Energy Inspector General | October 1, 2013 – March 31, 2014                              Page 36
                                 Semiannual Report to Congress

KPMG concluded that the financial statements present fairly, in all material respects, the
financial position of the Fund as of September 30, 2013 and 2012, and its net costs, changes in
net position, and budgetary resources for the years then ended, in conformity with United
States generally accepted accounting principles.

The auditors' review of the Fund's internal control structure and compliance with certain laws
and regulations disclosed no deficiencies or instances of noncompliance required to be
reported under generally accepted Government auditing standards or applicable Office of
Management and Budget guidance. (OAS-FS-14-02)

Department of Energy's FY 2013 Consolidated Financial Statements
Pursuant to requirements established by the Government Management Reform Act of 1994, we
engaged the independent public accounting firm of KPMG, LLP (KPMG) to perform the audit of
the Department's FY 2013 Consolidated Financial Statements. KPMG audited the consolidated
financial statements of the Department as of September 30, 2013 and 2012, and the related
consolidated statements of net cost, changes in net position, and custodial activity, and
combined statement of budgetary resources for the years then ended.

The audit revealed certain deficiencies in internal control related to unclassified network and
information systems security that were considered to be a significant deficiency. A significant
deficiency was identified regarding Unclassified Network and Information Systems Security in
the Department's system of internal controls, and is not considered a material weakness. The
audit disclosed no instances of noncompliance or other matters that are required to be
reported under applicable audit standards and requirements. We appreciated the cooperation
of Department elements during the review. (OAS-FS-14-03)

NNSA’s Management of the $245 million Nuclear Materials Safeguards and Security Upgrades
Project Phase II at Los Alamos National Laboratory
To address aging security infrastructure, the National Nuclear Security Administration (NNSA) is
now in the final phase of a project to upgrade security at the Los Alamos National Laboratory's
(LANL) Technical Area-55. These upgrades, known collectively as the Nuclear Materials
Safeguards and Security Upgrades Project - Phase II (NMSSUP), began in 2009. LANL divided
the bulk of the project into five firm-fixed price subcontracts that were awarded to one design
company and three construction contractors. Due to favorable contract bids in April 2011,
NNSA reduced the estimated total project cost from $245 million to $213 million. The project
consisted of more than 2,200 scheduled activities and was expected to be completed in January
2013. Los Alamos National Security, LLC (LANS) is the management and operating contractor
for LANL.

Our review revealed that the NMSSUP suffered from a number of project management
weaknesses. These issues ultimately resulted in cost increases of as much as $41 million and
delayed completion of the project by nearly a year. In addition, management information
systems failed to provide accurate and complete information about the funds available to
complete the remaining work scope. These project management issues created a series of

Energy Inspector General | October 1, 2013 – March 31, 2014                               Page 37
                                 Semiannual Report to Congress

problems that collectively resulted in significant unanticipated cost and schedule impacts.
Although it failed to take effective action to address project management weaknesses in
NMSSUP, the Department implemented detective controls that identified many of the issues in
this report and are key tools for holding Department contractors accountable for their
performance. NNSA had taken a number of positive actions to hold LANS accountable for lack
of performance; however, project management concerns remain despite these actions.

NNSA management generally concurred with our recommendations and acknowledged the
problems that previously plagued the project; however, Management disagreed with our
description of the evolution of NMSSUP's cost baseline and our conclusion that the project's
costs exceeded its approved baseline. Management's existing and planned corrective actions
are fully responsive to our recommendations. (DOE/IG-0901)

The Department's Management of Scientific User Facilities
The Department's Office of Science operates 31 Scientific User Facilities (user facilities). These
facilities provide scientific researchers with the most advanced tools of modern science and
include accelerators, colliders, supercomputers, light sources and neutron sources, as well as
facilities for studying the nanoworld, the environment and the atmosphere.

Nothing came to our attention to indicate that the Office of Science had not effectively
maximized the utilization of its user facilities and monitored user facility performance. Our
review of 2 Department laboratories that contained 8 of the Department's 31 user facilities
found that 2 neutron science facilities at the Oak Ridge National Laboratory exceeded 2011
goals for operating hours, while the Oak Ridge Leadership Computing Facility achieved an
utilization rate of over 95 percent of optimal hours. At Brookhaven National Laboratory
(Brookhaven) the National Synchrotron Light Source exceeded its planned operating hours and
the Relativistic Heavy Ion Collider achieved over 97 percent of its planned operating hours.

Although our review did not identify any major concerns, we did identify two areas in which
performance improvement may be possible, and we provided suggestions to the Office of
Science and Brookhaven National Laboratory to address these areas. (OAS-L-14-02)

Technology Transfer and Commercialization Efforts at the Department of Energy's National
Laboratories
Since the Department of Energy National Competitiveness Technology Transfer Act of 1989, the
Department has encouraged its national laboratories to enter into technology partnering
activities with non-Federal entities and has authorized its facilities to patent and license
intellectual property that may arise from research and development activities. The Energy
Policy Act of 2005 and the October 2011 Presidential Memorandum on Accelerating Technology
Transfer and Commercialization of Federal Research in Support of High-Growth Businesses had
specific requirements regarding the Department's technology transfer and commercialization
efforts.



Energy Inspector General | October 1, 2013 – March 31, 2014                                 Page 38
                                 Semiannual Report to Congress

Our review revealed opportunities to improve the effectiveness of the Department's
management of its technology transfer and commercialization efforts. Specifically, we found
that the Department had not finalized quantitative performance metrics necessary for it to
determine the success of its technology transfer and commercialization efforts, developed a
forward-looking approach for investing the Energy Technology Commercialization Fund
required by the Energy Policy Act of 2005, and ensured the national laboratories were
consistently treating their equity holdings in licensees received as part of their technology
transfer efforts. Due to turnover in key staff, we were unable to definitively determine why the
Department had failed to finalize and transmit its Execution Plan to Congress.

In the absence of finalized performance metrics and forward looking budgets, the Department
is at increased risk of failing to maximize its return on investment of limited technology transfer
and commercialization funds. Management concurred with our recommendations and
identified planned actions to address our recommendations. (OAS-M-14-02)

Management Letter on the Audit of the Department of Energy's Consolidated Financial
Statements for FY 2013
During the audit, KPMG, LLP (KPMG), our contract auditors, noted certain matters involving
internal control and other operational matters. These comments and recommendations are
intended to improve internal control or result in other operating efficiencies. Additionally,
KPMG identified certain deficiencies in internal controls that it considered a significant
deficiency.

KPMG noted 12 new findings and 5 repeat findings that were issued during the course of the
FY 2013 Audit of the Department’s Consolidated Financial Statements. Management generally
concurred with and provided planned corrective actions for most of the recommendations
listed in the Management Letter and management's comments are included in each finding.
(OAS-FS-14-06)

FY 2012 Work Performed Under the Work for Others Program at Los Alamos National
Laboratory
Our office contracted with an independent certified public accounting firm, KPMG, LLP (KPMG),
to assess the internal control structure at Los Alamos National Laboratory (LANL) and
determine whether it is effective in achieving the current goals and objectives of the Work for
Others (WFO) Program for FY 2012.

KPMG concluded that, except for the finding detailed in the report, LANL implemented internal
controls and compliance procedures in FY 2012 that met the Department's WFO Program
requirements, as stated in Department regulations, guidance and applicable contract
provisions. However, KPMG found that labor costs of certain personnel who primarily
supported the WFO Program were not allocated to WFO projects. KPMG estimated that during
FY 2012, the Department would have an annual savings of approximately $2 million by
implementing a separate indirect rate for these support organizations.


Energy Inspector General | October 1, 2013 – March 31, 2014                                 Page 39
                                 Semiannual Report to Congress

Further, KPMG noted that LANL's Ethics and Audit Division performed audits of the LANL
timekeeping policies in FY 2009 and FY 2011, and both audits identified employees who did not
allocate time proportionately benefiting projects. Because LANL had taken corrective action
and implemented additional policies and procedures for timekeeping, KPMG did not repeat the
related findings and recommendations in its report. The National Nuclear Security
Administration generally concurred with the finding and recommendation. (OAS-M-14-03)

Evaluation of Costs Charged to the Washington Savannah River Company Contract
No. DE-AC09-96SR18500 during FY 2010 and 2011
In August 1996, the Department's Savannah River Operations Office awarded the Savannah
River Site management and operating contract to Washington Savannah River Company
(WSRC). Subsequent to completion of work in June 2009, Savannah River Operations Office
authorized WSRC to obtain accounting, auditing, legal and other administrative services from
Savannah River Remediation to support the formal closeout of its contract. In December 2009,
the Letter of Credit expired and Savannah River Operations Office required WSRC to provide
invoices for reimbursement of the closeout costs. Savannah River Operations Office requested
our office to review the invoices and supporting documentation for costs reimbursed to WSRC
during FYs 2010 and 2011, including the closeout costs incurred by Savannah River
Remediation.

During the course of our evaluation, nothing came to our attention to indicate that WSRC was
reimbursed for costs that were not consistent with the terms of the contract. During FYs 2010
and 2011, WSRC was reimbursed a total of $601,420 for costs incurred. Detailed invoices, along
with supporting documentation, were submitted to the Savannah River Operations Office
Contracting Officer for review and approval prior to payment. We did not make any
recommendations in this report. (OAS-L-14-03)

Department of Energy's Uranium Enrichment Decontamination and Decommissioning Fund's
FY 2012 Financial Statement Audit
We contracted with the independent public accounting firm of KPMG, LLP (KPMG) to conduct
the audit of the Department's Uranium Enrichment Decontamination and Decommissioning
Fund's (D&D Fund) FY 2012 balance sheets and the related statements of net cost, changes in
net position and budgetary resources.

KPMG concluded that the financial statements present fairly, in all material respects, the
financial position of the D&D Fund as of September 30, 2012 and 2011, and its net costs,
changes in net position, and budgetary resources for the years then ended, in conformity with
United States generally accepted accounting principles. The auditors also considered the D&D
Fund's internal controls over financial reporting. The audit identified a deficiency, related to
recording of environmental liabilities that is considered to be a material weakness, and other
deficiencies, related to unclassified network and information systems security that is
considered to be a significant deficiency.



Energy Inspector General | October 1, 2013 – March 31, 2014                                Page 40
                                 Semiannual Report to Congress

The auditors' tests of compliance with certain provisions of laws, regulations and contracts
disclosed no instances of noncompliance or other matters that are required to be reported.
(OAS-FS-14-07)

National Nuclear Security Administration Nuclear Weapons Systems Configuration
Management
We received multiple allegations regarding the National Nuclear Security Administration's
(NNSA) management of configuration management (CM) information. The allegations related
to incomplete product definitions for NNSA nuclear weapons, and ineffective management of
classified nuclear weapons drawings, a situation that could lead to unauthorized changes to the
drawings. In response, we initiated this audit to determine whether NNSA had maintained
accurate and complete CM information for nuclear weapons and nuclear weapons components
to support safe, sound and timely decisions related to these devices.

Our review substantiated the allegations and identified instances in which NNSA had not
maintained accurate and complete CM information for its nuclear weapons and components.
We also identified additional concerns with the use of nuclear weapons parts and components
that did not conform to specifications. For instance, we found that NNSA sites could not always
locate 'as-built' product definitions or associated drawings for nuclear weapons and
components in its official records repositories, and sites did not always ensure that parts that
did not conform to specifications were actually fit for use in a nuclear weapon.

Management concurred with our recommendations and stated that NNSA remains vigilant in
configuration management information for its nuclear weapons and components as well as in
supply chain management issues. Additionally, management's proposed and initiated
corrective actions are responsive to our findings and recommendations. (DOE/IG-0902)

Long-Term Storage of Cesium and Strontium at the Hanford Site
One of the many significant cleanup challenges faced by the Department is the ongoing
management of stored cesium and strontium capsules at the Hanford Site's Waste
Encapsulation and Storage Facility (WESF).

We found that the Richland Operations Office (Richland) has initiated action to begin to address
some of the challenges posed by continued storage of cesium and strontium capsules in the
WESF. Such action appears prudent in that continued storage of the capsules in WESF is not
cost effective and may pose additional risks to the environment associated with beyond design
threats at the Hanford Site. While Richland is considering options for dry storage, there are no
definitive plans to move the capsules to a safer and more cost effective storage system.

The Department is aware of the current safety conditions associated with the storage of cesium
and strontium capsules at WESF and has taken actions to mitigate any risks associated with
WESF. Furthermore, we acknowledge the budgetary challenges facing the Department, and its
impact on moving the capsules into dry storage. We did not make any formal recommendations;
however, we suggested that the Richland Operations Office expeditiously proceed with its plans

Energy Inspector General | October 1, 2013 – March 31, 2014                              Page 41
                                 Semiannual Report to Congress

to pursue a dry storage alternative to support transfer of the capsules out of WESF at the earliest
possible timeframe. (OAS-L-14-04)

Bonneville Power Administration's Transmission Vegetation Management Program
The Department of Energy's (Department) Bonneville Power Administration (Bonneville)
markets wholesale power produced from Federal water projects. Bonneville's Transmission
Vegetation Management Program (Vegetation Program) is responsible for ensuring measures
are in place to prevent physical contact between transmission lines and nearby vegetation.
Bonneville's overall Vegetation Program budget for Fiscal Year 2013 was approximately $14.9
million, with approximately $12.5 million provided to contractors for performance of
vegetation maintenance work.

Bonneville's Vegetation Program included a number of positive controls and technologies to
ensure vegetation surrounding its transmission lines were properly maintained. Specifically,
over the last 5 years, Bonneville utilized a Light Detection and Ranging (LiDAR) system to
inspect and detect vegetation conditions that required maintenance. LiDAR is a remote sensing
system used to collect topographic and geospatial data and has the capability to detect, with
nearly 100 percent accuracy, vegetation that requires maintenance. Additionally, Bonneville
had developed a continual vegetation monitoring program designed to ensure that all
necessary maintenance is completed. However, our review identified several opportunities to
improve the management of contractors that performed vegetation maintenance for
Bonneville.

Because Bonneville initiated actions to ensure the inspectors' reviews were documented, we
did not make any formal recommendations. However, we provided a suggested action to
further improve Bonneville's Vegetation Program. (OAS-L-14-05)

Western Area Power Administration's Rocky Mountain Regional Office's Transmission
Vegetation Management Program
The Department’s Western Area Power Administration (Western) markets wholesale power
produced from Federal water projects. Western's transmission lines are managed by four
regional offices — Rocky Mountain, Sierra Nevada, Upper Great Plains, and Desert Southwest.
Each regional office is responsible for ensuring vegetation management practices are in place to
prevent physical contact between transmission lines and nearby vegetation.

We conducted this audit to determine whether Western had effectively managed its
Transmission Vegetation Management Program (Vegetation Program) in the Rocky Mountain
Region. Between June 2011 and September 2013, the Rocky Mountain Region spent
approximately $4.6 million for vegetation maintenance in forested areas.

Our audit found that Rocky Mountain had generally implemented management controls for its
Vegetation Program. However, we identified opportunities to improve the Rocky Mountain
Region's management of its vegetation maintenance contractor. Additional contractor work
verification techniques, or refinement of current techniques, could help the Rocky Mountain

Energy Inspector General | October 1, 2013 – March 31, 2014                                Page 42
                                 Semiannual Report to Congress

Region ensure that it is not overpaying its contractor. While a number of actions are already in
place, improving verification could also increase assurance that vegetation is not encroaching
on transmission lines. We provided a suggested action to address these concerns.
(OAS-L-14-06)




Energy Inspector General | October 1, 2013 – March 31, 2014                               Page 43
                                 Semiannual Report to Congress

Inspection Reports

Review of Allegations Regarding Prohibited Personnel Practices at the Bonneville Power
Administration
We received a complaint alleging prohibited personnel practices at Bonneville Power
Administration (Bonneville). The allegations included violations of Office of Personnel
Management regulations and the inappropriate dismissal of veterans during their probationary
period. The complaint also alleged violations of Department policies regarding the application
of veterans' preference and the use of the category rating process in the exercise of
Bonneville's delegated examining authority for competitive hiring.

We found that Bonneville's hiring practices disadvantaged veterans and other applicants.
Bonneville consistently manipulated the applicant rating process, and did not fully disclose to
the Department that the inappropriate personnel practices had occurred or the adverse impact
on veterans and other applicants despite specific requirements to do so. Further, Bonneville
neither notified the affected applicants nor did it initiate corrective actions required to remedy
the inappropriate practices.

The management culture at Bonneville contributed to an environment that enabled the
prohibited practices to occur. Notably, we observed that Bonneville officials spent considerable
effort trying to distance the organization from Departmental procedures, processes and
oversight. Compounding problems associated with the general environment and culture, our
inquiry revealed that Bonneville exercised inadequate oversight and accountability of its own
personnel recruitment functions. In short, there was a massive breakdown in procedures,
processes and management attentiveness at several levels of Bonneville's operation.
The impact of Bonneville's improper hiring practices is widespread, has subjected affected
individuals to economic consequences, has disrupted Department and Bonneville operations,
and has exposed the Department to a variety of legal challenges. Most importantly, adversely
impacted veterans have not received promised benefits. The Department expressed
concurrence with our report, and its corrective actions, taken and planned, were fully
responsive to our findings and recommendations. (DOE/IG-0895)

Performance of Work for a Non-Department Entity at Lawrence Livermore National
Laboratory
We received a complaint alleging that Lawrence Livermore National Laboratory (LLNL) engaged
in illegal competition with the private sector by performing work for a non-Federal entity, and
that the facilities and resources of LLNL were used inappropriately to perform this outside
work. These allegations involve explosives-related work performed at LLNL for a National
Geographic documentary about the Lusitania, a British passenger ship that sank in May 1915.

Our inspection substantiated certain aspects of the allegation. Specifically, we found that LLNL
did not adequately consider the prohibitions against a Federally Funded Research and
Development Center competing with the private sector when performing work for National


Energy Inspector General | October 1, 2013 – March 31, 2014                                Page 44
                                 Semiannual Report to Congress

 Geographic's documentary, The Dark Secrets of the Lusitania, and that LLNL used Department
facilities and resources inappropriately, to include $81,746 in Licensing and Royalty funds, to
perform work for National Geographic. In addition, the work performed for the documentary
did not appear to be consistent with LLNL's mission.

These conditions occurred, in part, because LLNL did not follow the established Work for Others
process but instead pursued an alternate, less formal process for approving and funding the
documentary as a non-reimbursable project that used Licensing and Royalty funds.
Management concurred with our recommendations and indicated that it was in the process of
implementing corrective actions that were generally responsive to our findings and
recommendations. (INS-O-14-01)

Procurement Internal Controls at Los Alamos National Laboratory
We received an allegation from the Los Alamos Field Office concerning a possible conflict of
interest in a consultant agreement awarded to an individual who was the spouse of a senior
manager at Los Alamos National Laboratory (LANL). It was alleged that neither the consultant
nor the senior manager disclosed their spousal relationship to LANL. Further, it was alleged
that work was performed before the consultant agreement was signed and also that hours
were charged by the consultant for work that was not performed. We initiated this inspection
to determine the facts and circumstances surrounding the allegations.

The allegations were substantiated. We found that LANL inappropriately awarded a sole source
consultant agreement to an individual who was the spouse of a senior LANL manager. We also
discovered that the consultant did not disclose his spousal relationship with the senior LANL
manager at the time of award. In addition, the senior manager did not notify LANL ethics
officials or her superior of a potential conflict of interest involving her spouse's consulting
agreement until 5 months after the consultant agreement was awarded. The issues identified
in this report occurred, in part, because a LANL official who sponsored the consultant
agreement failed to recognize and address apparent conflict of interest issues.

Management agreed with the findings and recommendations noted in the report, and indicated
that the Los Alamos Field Office has supervised the implementation of the recommended
corrective actions and will engage in ongoing oversight to evaluate the sustained effectiveness
of these actions. Management also indicated that it will ensure that lessons learned from this
incident are shared across the Nuclear Security Enterprise. (DOE/IG-0903)

Review of Controls Over the Department's Classification of National Security Information
The Department handles and manages a broad spectrum of classified information, including
National Security Information (NSI). The Office of Health, Safety and Security's Office of
Classification, manages the Department-wide classification program and establishes policies to
conform with Federal classification requirements. Implementation of classification
requirements is shared among various organizations within the Department. In addition, the
Department's Office of Intelligence and Counterintelligence is required to follow NSI policies
and procedures instituted by the Office of the Director of National Intelligence. Similarly, the

Energy Inspector General | October 1, 2013 – March 31, 2014                               Page 45
                                 Semiannual Report to Congress

Department's National Nuclear Security Administration (NNSA) separately develops and
implements policies and procedures, in coordination with the Office of Classification, for the
protection and security of classified information at NNSA sites.

Our inspection revealed that the Department had established and implemented critical
elements of its classified NSI program. However, our review revealed that certain aspects of
the NSI program could be improved. For instance, our inspection determined that a
classification marking tool embedded in the classified email system at an NNSA site
automatically marked emails as Secret//Restricted Data, regardless of content. The
classification related issues we observed occurred, in part, because of ineffective oversight of
classification activities and inadequate training and guidance.

In general, we found management's comments and planned corrective actions to be generally
responsive to our report findings and recommendations. (DOE/IG-0904)




Energy Inspector General | October 1, 2013 – March 31, 2014                                 Page 46
                                 Semiannual Report to Congress

Recovery Act Reports

Recent Events Related to Ecotality, Inc.
In our audit of the funding to Ecotality, The Department of Energy Vehicle Technologies
Program's $135 Million in Funding to Ecotality, Inc. (OAS-RA-13-29, July 2013), we found that
the Department's management and administration of Ecotality's awards could have been
improved. We initiated this review to determine whether the Department was aware of, and
had disclosed to our staff, pertinent events that occurred prior to the completion of our
previous audit related to Ecotality's ability to meet its obligations. We also sought to determine
whether the Department was effectively managing Ecotality's awards in light of recent events.

We found that the Department had not fully disclosed known concerns regarding Ecotality's
ability to meet its electric vehicle project obligations prior to completion of our previous audit.
Information that raised questions about Ecotality's ability to meet its project goals, including
completing planned EV charger installations and the collection of electric vehicle usage data,
was not provided even though the data had a readily apparent connection to our in-process
audit.

Program officials asserted that the failure to disclose the information regarding Ecotality's
difficulties was unintended. Nothing came to our attention to the contrary; however, we are
deeply concerned because the information directly related to the objective of our audit. While
the Department moved swiftly to suspend funding of Ecotality's Recovery Act award, it had not
taken similar action for the remaining ongoing Ecotality project. Notably, the Department had
not suspended payments under Ecotality's 2011, $26 million award to test electric vehicles.
Management concurred with our recommendations and indicated that it had completed or
initiated certain corrective actions. (OAS-RA-14-01)

The Department of Energy's American Recovery and Reinvestment Act Energy Efficiency and
Conservation Block Grant Program – District of Columbia
The Department’s Efficiency and Conservation Block Grant (EECBG) Program received about
$3.2 billion under the American Recovery and Reinvestment Act of 2009 to help state and local
entities develop, implement and manage energy efficiency and conservation projects. Of the
funding provided, more than $2.7 billion was distributed to over 2,000 entities using a
population-driven formula. The Department allocated about $9.6 million in December 2009 to
the District of Columbia government through the District Department of the Environment
(DDOE). DDOE selected four District of Columbia government agencies and six non-profit
community-based organizations (CBOs) to assist in completing retrofits.

We identified multiple weaknesses that led us to question the sufficiency of DDOE's controls
over EECBG funding to CBOs. For example, our audit revealed that DDOE had awarded
$630,000 to two CBOs that lacked adequate experience in the area of energy efficiency
retrofits, and had advanced over $160,000 to three CBOs without assigning corresponding
work. In contrast, nothing came to our attention to indicate that the work performed by the
District of Columbia government entities was not appropriately completed.

Energy Inspector General | October 1, 2013 – March 31, 2014                                  Page 47
                                 Semiannual Report to Congress

We found that the issues identified occurred, primarily, because of an ineffective control
environment within DDOE. These issues were not transparent to the Department because
DDOE is a government entity, and consistent with existing practices, was not required to
provide detailed documentation supporting its EECBG expenditures. Therefore, Department
officials may not have had the information necessary to identify these issues and take
appropriate action. The Department agreed with our recommendations and stated that it was
working with DDOE to ensure that all corrective actions were implemented. (OAS-RA-14-02)

Allegations of Potential Fraud and Mismanagement of a Smart Grid Investment Grant
Program Award
As part of the American Recovery and Reinvestment Act of 2009, the Office of Electricity
Delivery and Energy Reliability received about $4.5 billion to modernize the electric grid, with
about $3.5 billion allocated to the Smart Grid Investment Grant (SGIG) Program. Under the
SGIG Program, Progress Energy Service Company (Progress Energy) received a $200 million
grant to accelerate deployment of technologies to increase efficiency and demand response
across its enterprise. As part of the award, Progress Energy partnered with International
Business Machines (IBM) to manage the project and its associated tasks.

We received an allegation that Progress Energy had mismanaged the SGIG award and
submitted potential false claims to the Department. Although other assertions were made
regarding the award, we elected to address two areas of the allegation: (1) that Progress
Energy had fraudulently submitted reimbursement requests for costs incurred prior to the
award, and (2) that contracted services with IBM contained no associated deliverables.

The allegations we evaluated were not substantiated. While we confirmed that Progress
Energy had submitted reimbursement requests for costs incurred prior to the date of the
award, we determined that this practice had been specifically allowed by the Department.
Additionally, we found that the task orders contained a number of deliverables, and nothing
came to our attention to suggest that the specific deliverables contained in the task orders to
IBM were inadequate or were not appropriately documented. Based on these considerations
and our review of information supplied by Progress Energy and the Department, we did not
substantiate the allegations. (OAS-RA-14-03)




Energy Inspector General | October 1, 2013 – March 31, 2014                                 Page 48
                                  Semiannual Report to Congress

REPORTING REQUIREMENTS INDEX
The following identifies the sections of this report that address each of the reporting
requirements prescribed by the Inspector General Act of 1978, as amended.



 SECTION                              REPORTING REQUIREMENT                                  PAGE


   4(a)(2)      Review of Legislation and Regulations                                         14

                                                                                             25-48
   5(a)(1)      Significant Problems, Abuses, and Deficiencies

   5(a)(2)      Recommendations for Corrective Action to Significant Problems                25-48

                Previous Reports’ Recommendations for Which Corrective Action Has Not Been
   5(a)(3)                                                                                    25
                Completed

   5(a)(4)      Matters Referred to Prosecutive Authorities                                  25-32

   5(a)(5)      Information Assistance Refused or Not Provided                               N/A

   5(a)(6)      Audit Reports Issued in This Reporting Period                                9-13

   5(a)(7)      Summary of Significant Reports                                               33-48

   5(a)(8)      Reports with Questioned Costs                                                 20

   5(a)(9)      Reports with Recommendations That Funds Be Put to Better Use                  19

                Previous Audit Reports Issued with No Management Decision Made by End of
  5(a)(10)                                                                                    14
                This Reporting Period

  5(a)(11)      Significant Revised Management Decisions                                     N/A

  5(a)(12)      Significant Management Decisions with which the OIG is in Disagreement       N/A

  5(a)(13)      Federal Financial Management Improvement Act-related Reporting               N/A

 5(a)(14–16)    Peer Review Results                                                           24




Energy Inspector General | October 1, 2013 – March 31, 2014                                    Page 49
                                 Semiannual Report to Congress

ABOUT THE DEPARTMENT AND OIG
The U.S. Department of Energy is headquartered in Washington, DC and currently operates the
Energy Information Administration, the National Nuclear Security Administration, 21
preeminent research laboratories and facilities, four power marketing administrations, nine
field offices, and 10 Program Offices which help manage the Department’s mission with more
than 15,000 employees. The Department is the Nation's top sponsor of research and
development and has won more Nobel Prizes and research and development awards than any
other private sector organization and twice as many as all other Federal agencies combined.
The mission of the Department is to ensure America’s security and prosperity by addressing its
energy, environmental and nuclear challenges through transformative science and technology
solutions.

The OIG’s mission is to strengthen the integrity, economy and efficiency of the Department’s
programs and operations. The OIG has the authority to inquire into all Department programs
and activities as well as the related activities of persons or parties associated with Department
grants, contracts, or other agreements. As part of its independent status, the OIG provides the
Secretary with an impartial set of "eyes and ears" to evaluate management practices. With
approximately 290 employees, the organization strives to be a highly effective organization that
promotes positive change.




Energy Inspector General | October 1, 2013 – March 31, 2014                               Page 50
                                 Semiannual Report to Congress

OIG HOTLINE CONTACT
Contact the OIG Hotline if you suspect fraud, waste or abuse involving Department programs or
by a Department employee, contractor or grant recipient.

Contact Information:

    •   Toll Free Telephone Number:                           1-800-541-1625
    •   Washington DC Metro Telephone Number:                 202-586-4073
    •   Email Address:                                        ighotline@hq.doe.gov
    •   Physical Address:                                     U.S. Department of Energy
                                                              1000 Independence Ave, SW
                                                              Washington, DC 20585

FEEDBACK
The contents of the March 2014 Semiannual Report to Congress comply with the requirements
of the Inspector General Act of 1978, as amended. If you have any suggestions for making the
report more responsive, please provide the following information by clicking the “submit email”
button below:

    •    Name
    •    Telephone Number
    •    Comments/Suggestions/Feedback




Energy Inspector General | October 1, 2013 – March 31, 2014                               Page 51
